<html>
<title> - PUBLIC SAFETY COMMUNICATIONS: ARE THE NEEDS OF OUR FIRST RESPONDERS BEING MET?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  PUBLIC SAFETY COMMUNICATIONS: ARE THE NEEDS OF OUR FIRST RESPONDERS 
                               BEING MET?

=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2011

                               __________

                           Serial No. 112-13

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
72-223                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
           Michael J. Russell, Staff Director/General Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5

                               Witnesses

Chief John E. ``Jack'' Parow (Ret.), President and Chairman of 
  the Board, International Association of Fire Chiefs:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
William ``Bill'' D. Carrow, President, The Association of Public-
  Safety Communications Officials (APCO) International:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Paul H. Fitzgerald, Sheriff, and First Vice President, National 
  Sheriffs' Association:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Gregory L. Simay, At-Large Director, Los Angeles Regional 
  Interoperable Communication System:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19

                             For the Record

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Policy Bulletin No. 26, From the Phoenix Center for Advanced 
    Legal & Economic Public Policy Studies.......................     2
  Statement of Jim Mullen, Director, Washington Military 
    Department Emergency Management Division and President, 
    National Emergency Management Association....................     2

                                Appendix

Questions From Chairman Peter T. King for Chief John E. ``Jack'' 
  Parow..........................................................    45
Questions From Honorable Laura Richardson for William ``Bill'' D. 
  Carrow.........................................................    46
Questions From Chairman Peter T. King for Sheriff Paul H. 
  Fitzgerald.....................................................    48
Question From Honorable Laura Richardson for Sheriff Paul H. 
  Fitzgerald.....................................................    49


  PUBLIC SAFETY COMMUNICATIONS: ARE THE NEEDS OF OUR FIRST RESPONDERS 
                               BEING MET?

                              ----------                              


                       Wednesday, March 30, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:09 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, Miller, Walberg, 
Cravaack, Quayle, Marino, Farenthold, Thompson, Jackson Lee, 
Clarke of New York, Richardson, Christensen, Davis, Richmond, 
Clarke of Michigan, and Keating.
    Also present: Representative Green of Texas.
    Chairman King. Good morning. The Committee on Homeland 
Security will come to order.
    The committee is meeting today to hear testimony on the 
state of public safety communications in order to identify 
where progress has been made since the terrorist acts of 
September 11, 2001, and where shortfalls remain.
    We will examine issues such as the reallocation of the D 
Block, the need for a National interoperable public safety 
wireless broadband network, the National broadband plan and the 
extent of coordination between Federal, State, and local 
partners.
    I now recognize myself for an opening statement.
    I ask unanimous consent to insert in the record a study 
which found that assigning D Block to public safety provided at 
least $3.4 billion by the auction of a spectrum for commercial 
use. This study is published by the Phoenix Center, an 
international non-profit 501(c)(3) organization; and also, a 
statement from the National Emergency Management Association on 
public safety communications.
    Without objection, so ordered.
    [The information follows:]
     Statements Submitted for the Record by Chairman Peter T. King
 Policy Bulletin No. 26, From the Phoenix Center for Advanced Legal & 
                    Economic Public Policy Studies *
---------------------------------------------------------------------------
    * The document has been retained in committee files and is also 
available at http://www.phoenix-center.org/PolicyBulletin/
PCPB26Final.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
   Statement of Jim Mullen, Director, Washington Military Department 
   Emergency Management Division, and President, National Emergency 
                         Management Association
                             March 30, 2011
    Thank you Chairman King and Ranking Member Thompson for the 
opportunity to provide this statement for the record regarding public 
safety communications. This truly is a critical time for our Nation in 
terms of ensuring first responders have the tools necessary to conduct 
the business of saving lives and property during a time of crisis.
    Established in 1974, NEMA represents the emergency management 
directors of the 50 States, territories, and the District of Columbia. 
These professionals are responsible to their Governors for all-hazards 
emergency preparedness, mitigation, response, and recovery from all 
emergencies, disasters, and threats to the homeland. NEMA is proud to 
stand with our colleagues of the Public Safety Alliance and larger 
public safety community testifying today.
    The State emergency management directors of NEMA provide National 
leadership and expertise in comprehensive emergency management; serve 
as a vital emergency management information and assistance resource; 
and advance continuous improvements in emergency management through 
strategic partnerships. Working arm-in-arm with our public safety 
partners extends far beyond the emergency management industry. As 
coordinators of emergency response functions, the State emergency 
managers recognize the need for Congress to take action immediately.
    Even though we are not direct users of the system, many State 
agencies do utilize aspects of the system such as P-25 trunked and 
interoperable solutions every day. There are numerous examples in the 
northeast when 800 MHz or 700 MHz channels were used by multiple 
agencies to provide communications across all emergency support 
functions (ESF). The D Block will allow the next extension of this 
network to include data and video for the same core groups responding 
and recovering from a disaster. Perhaps one of the most important 
elements of the Public Safety system is the mission-critical nature of 
what emergency managers accomplish on a daily basis.
    NEMA strongly supports the effort to prevent the auction of the D 
Block and see that the public safety has all necessary tools to 
effectively respond to an incident. This Nation-wide broadband network 
remains critical to ensuring our police, fire, medical, and emergency 
professionals have access to modern and reliable communications 
capabilities.
    The Federal Communications Commission (FCC) has licensed 10 MHz of 
radio spectrum in the 700 MHz band to public safety for broadband 
services. Many National organizations agree this 10 MHz is insufficient 
to meet public safety's bandwidth needs. Public safety needs more 
spectrum.
    For economic and technical reasons, additional public safety 
broadband spectrum should be in the same band as the current public 
safety broadband spectrum. Such spectrum exists and is available. The D 
Block is two complimentary segments of radio spectrum comprising 10 MHz 
in the upper 700 MHz spectral band, located directly adjacent to the 
spectrum currently licensed to public safety for broadband services. 
The D Block is also the only substantial contiguous spectrum remaining 
in the 700 MHz band yet to be licensed, so no licensed users would be 
displaced. Should public safety be forced to build an interoperable 
network in two separate bands, additional fiscal challenges would 
result due to the need of new technologies to bridge the disparate 
systems required to fulfill the comparable need of the singular D 
Block.
    Under current statute, the FCC is required to auction the D Block 
spectrum for commercial services. Once auctioned, the D Block would be 
encumbered and out of public safety's reach for the foreseeable future; 
in practical effect, it would be gone forever. To prevent such an 
auction, NEMA has joined the PSA and numerous other organizations in 
urging Congress to pass legislation allocating the D Block to public 
safety and providing a funding mechanism to aid in the build-out and 
operation of a Nation-wide broadband network. The PSA includes 
associations representing police, sheriffs, fire chiefs, emergency 
medical personnel, and emergency management.
    NEMA remains appreciative of Chairman King, Ranking Member 
Thompson, and the growing list of cosponsors for H.R. 607, the 
Broadband for First Responders Act of 2011. We were also thankful for 
the President's fiscal year 2012 budget which provides $10 billion to 
build and fund the network using the proceeds from the auction of other 
spectrum. Under these ``incentive auctions,'' television broadcasters 
would relinquish their rights to certain spectrum in exchange for a 
portion of the proceeds when the spectrum is auctioned.
    Fortunately, Congress has the means by which to ensure this asset 
is available thereby securing the lives of millions of Americans. This 
network would give public safety invaluable data services such as 
photos, diagrams, and video, an infrastructure built to withstand 
natural hazards, and Nation-wide coverage. By standing with the PSA, 
NEMA joins countless organizations in supporting this effort and is 
pleased to fully support Congress directing the FCC to allocate the D 
Block spectrum to public safety.
    Again, I thank you for the opportunity to submit this statement for 
the record on this critical issue. As a member of the Public Safety 
Alliance, NEMA is proud to stand with our colleagues in public safety 
as we work to ensure the allocation of the D Block. We look forward to 
working with your committee as this issue moves forward and hope you 
will utilize the expertise of our members should the need arise.

    Chairman King. Yes.
    Mr. Thompson. I guess going forward, if we could, on the 
Phoenix study you just referenced----
    Chairman King. Yes.
    Mr. Thompson [continuing]. We wanted to get a little more 
on it. But I will talk to you a little about it a little later.
    But we have no objection.
    Chairman King. Thank you.
    I thank the Ranking Member.
    I would welcome everyone here this morning to discuss the 
issue of public safety communications. I also want to thank the 
witnesses, and thank you for giving of your valuable time to 
testify before us on this very, very vital issue.
    As we all know, one of the many tragedies of 9/11 was the 
reality we saw that communications did not work anywhere near 
the extent to which they should have, and they did not meet the 
needs of that day.
    Now we are approaching the 10th anniversary of September 
11, and yet, first responders across the Nation face many of 
the same problems that existed 10 years ago.
    This morning, Governor Kean and former Chairman Hamilton of 
the 9/11 Commission have testified before the Senate Homeland 
Security Committee on the progress we have made and what needs 
to be done to secure our Nation. They are the co-chairs of the 
9/11 Commission, and that was charted to prepare a full and 
complete account of the circumstances surrounding the September 
11, 2001, terrorist attacks.
    The commission was also mandated to provide recommendations 
designed to guard against future attacks. One of their main 
recommendations, and probably the one that--one of the few that 
remains almost entirely unfilled--was, and I quote--``Congress 
should support pending legislation which provides the expedited 
and increased assignment of radio spectrum for public safety 
purposes.''
    That was issued in the summer of 2004, almost 7 years ago. 
So, it is almost 10 years since September 11, and almost 7 
years since the 9/11 Commission made their recommendations.
    As we approach the 10th anniversary of September 11, public 
safety must be allocated sufficient spectrum, so that a 
National interoperable public safety wireless broadband network 
can finally be built.
    Law enforcement needs access to streaming video and 
surveillance networks to identify known terrorists through the 
use of video analytics, criminal records, automated license 
plate readers and biometric technologies, including mobile 
fingerprint and iris identification, which will also help to 
prevent and respond to crimes.
    Fire services need access to building blueprints, help 
monitoring sensors and GPS tracking systems to save lives. 
Emergency medical services need access to telemedicine and 
high-resolution video to reduce the time it takes to deliver 
medical services at the scene of an incident.
    To meet this goal, I have reintroduced the Broadband for 
First Responders Act of 2011. I am very proud that I have been 
joined in this effort by Ranking Member Thompson and 11 other 
colleagues, including seven Members of this committee.
    I would say the fact that Chairman--that the former 
Chairman and current Ranking--you will always be Chairman--
Ranking Member Thompson and I have such strong support on the 
committee, and that we are standing together, I think 
demonstrates the type of bipartisan support we need.
    Obviously, there are issues we are going to have 
philosophical differences on, partisan differences on, 
political differences on. The fact is, this is an issue where 
we are standing together as one, and we will combine our 
efforts to do all we can.
    In addition to that, the administration also supports the 
reallocation of the D Block to public safety. On February 10, 
President Obama announced his plan to reallocate the D Block 
and provide funding for the network. He also mentioned it in 
his State of the Union speech.
    At our hearing on February 17, sitting right there, 
Secretary Napolitano gave us her assurances that she would work 
with the committee on moving this issue forward.
    I know that in the Senate, Senator McCain, Senator 
Lieberman, Senator Collins, Senator Rockefeller all are 
supporting either this legislation or legislation very 
comparable to it.
    So, I think this is the time, this is the moment where we 
can move forward and, hopefully, adopt this in both houses and 
have it signed by the President prior to September 11.
    Now, for those who say we cannot afford to pay it now, I 
say we cannot afford not to. No matter how we look at it, 
whether we are talking about the potential loss of human life, 
whether we are talking about the horrific economic consequences 
that would result, the fact is, reallocating D Block is 
absolutely essential.
    It is not a Republican issue. It is not a Democratic issue. 
It is an American issue.
    Again, in closing my remarks, I want to thank all the 
witnesses for being here. I want to thank the Ranking Member 
for standing as one on this vital issue.
    With that, I am proud to recognize the Ranking Member, the 
gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like to ask unanimous consent that Congressman 
Green, a former Member of this committee, be allowed to sit on 
the panel for the hearing today.
    Chairman King. Reserving the right to object--and I will 
not--I would just say that the gentleman from Texas should 
consider coming back to the committee. We have some vacancies 
here. I will always welcome his quiet, very shy style on the 
committee.
    So, with that, I withdraw my objection.
    Mr. Thompson. Thank you very much.
    Thank you again, Chairman, for holding today's hearing on 
emergency communication for first responders.
    In the 110th and 111th Congresses, this committee held four 
oversight hearings on emergency communications. We established 
a strong record on the importance of emergency communication 
and interoperability in assuring the security of the Nation in 
times of natural disaster, terrorist attack, and catastrophic 
events.
    Because of the need for first responders to be well-
equipped and able to communicate effectively, I am pleased to 
be an original co-sponsor of the Broadband for First Responders 
Act of 2011, as introduced by Chairman King.
    This bill will strengthen the Nation's emergency 
communications systems by reallocating the D Block of 700 MHz 
wireless broadband spectrum for public safety use and fund the 
creation of a National network.
    On the same day this bill was introduced, President Obama 
announced his support for reallocation of D Block to the public 
safety.
    Since its inception, this committee has enjoyed bipartisan 
support of efforts to improve emergency communications. I would 
hope that assuring state-of-the-art communications for our 
first responders would be an area of bipartisan agreement 
throughout Congress.
    Unfortunately, even at this issue, bipartisan support is 
not to be had. I am told that Chairman King's bill, which was 
referred solely to the Energy and Commerce Committee, has met 
with opposition from the Republican leadership on the 
committee.
    Instead of moving forward with legislation to reallocate D 
Block for first responders, the Chairman of Energy and Commerce 
has indicated his preference for selling the publicly held 
spectrum to private interests and using the proceeds of the 
sale to reduce the deficit. While deficit reduction is a worthy 
goal, we cannot afford to be penny-wise and pound-foolish.
    Not only will the allocation of D Block create savings by 
streamlining communications and creating a Nation-wide 
interoperable network, but because it will increase the 
effectiveness of disaster response, countless lives will be 
saved.
    The 9/11 Commission realized that emergency communications 
is critical for ensuring public safety and effective response 
to disasters. The Commission specifically recommended Congress 
support legislation providing for the expedited and increased 
assignment of radio spectrum for public safety purposes.
    The necessity of emergency communication effectiveness was 
also recognized by the House of Representatives Select 
Bipartisan Committee on Hurricane Katrina. This select 
committee, formed by Speaker Hastert and chaired by 
Representative Tom Davis--both Republicans--found that due to 
storm impact and flooding, more than 2,000 emergency personnel 
were forced to communicate in single-channel mode, radio-to-
radio, utilizing only the three neutral aid frequencies.
    To date, the FCC has not moved forward with efforts to 
auction D Block. However, the FCC retains the right to conduct 
this auction.
    I hope today's hearing will convince the FCC and the 
Chairman of Energy and Commerce of the importance of public 
safety communications and the need to reallocate, not auction, 
D Block.
    Mr. Chairman, I thank you for holding this hearing, and I 
look forward to the hearing and the testimony from the 
witnesses.
    Chairman King. I thank the Ranking Member.
    I would remind other Members of the committee that opening 
statements may be submitted for the record.
    As I mentioned before, we are pleased to have a 
distinguished panel of witnesses before us today, on what the 
Ranking Member and I agree is a vitally important topic.
    Chief Jack Parow is the president and chairman of the board 
of the International Association of Fire Chiefs. He is a 33-
year veteran of the fire service, most recently serving 
Chelmsford, Massachusetts.
    Bill Carrow currently serves as the president of the 
Association of Public-Safety Communications Officials, and for 
11 years he was the communications chief of the Delaware State 
Police, where he focused on interoperability.
    Sheriff Paul Fitzgerald has served as sheriff of Story 
County, Iowa, since 1993. Sheriff Fitzgerald was the first vice 
president of the National Sheriffs' Association and serves as 
the association's representative to the Public Safety Alliance.
    Greg Simay is an assistant general manager of Burbank Water 
and Power, a municipal utility that works with Burbank's local 
police and fire departments. For 23 years, Mr. Simay ran the 
power delivery division, which included responsibility for the 
city's radio and phone systems.
    Now, the Chair recognizes Chief Parow.

STATEMENT OF CHIEF JOHN E. ``JACK'' PAROW (RET.), PRESIDENT AND 
CHAIRMAN OF THE BOARD, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Chief Parow. Good morning, Chairman King, Ranking Member 
Thompson, and Members of the committee.
    I am Jack Parow, recently retired fire chief from 
Chelmsford, MA Fire and Rescue, and serve as president and 
chairman of the board of the International Association of Fire 
Chiefs.
    I testify today in support of H.R. 607. I am grateful for 
the efforts of this committee to keep this issue foremost in 
Congressional consideration.
    This legislation is needed to enable fire, EMS, and law 
enforcement to reach our highest goals--construction of a 
Nation-wide public safety wireless interoperable broadband 
network.
    Our business is incident management and the fundamentals 
are command and control. These elements are not possible 
without sufficient communications capability.
    For too long, we have had urgent need to improve public 
safety communications. This was acknowledged both in the 9/11 
Commission report and Katrina reports, which summarize the 
deficiencies of the response in those catastrophic events.
    To bring public safety communications into the 21st 
Century, a National architecture of public safety 
communications is required. To achieve a Nation-wide public 
safety wireless broadband network, key elements need to be put 
in place.
    First, the network must have sufficient capacity. The 10 
MHz of D Block spectrum currently slated for FCC auction must 
be added to the 10 MHz of spectrum already licensed to public 
safety.
    To maximize the potential of new 4G technology, a 
configuration of 20 MHz is needed. The currently licensed 
public safety spectrum abuts the D Block and is perfect for 
public safety. With this configuration only can public safety 
be assured that it will have the ability to build the network 
it needs for today and into the future.
    We have a one-time opportunity, a one chance to get this 
right.
    Second, the network must be under public safety control. 
Local control of the network by public safety agencies is 
critical. A single licensee utilizing a single technology with 
sufficient capacity will ensure Nation-wide interoperability 
and allow us to effectively manage day-to-day operations along 
with those of major incidents.
    We cannot have commercial providers deciding what is or 
what is not an emergency, and what is and what is not a 
priority. Public safety transmissions must go through without 
delay.
    Network control will give public safety certainty that it 
will have full, immediate, preemptive priority over its 
spectrum on a when-needed basis.
    This is a public safety imperative.
    Third, the network must be mission-critical from the 
outset. In the beginning, this system will handle only data and 
video. At some future date, maybe years from now, we believe 
that there will be a transition to mission-critical voice. This 
will occur when technology becomes available, when public 
safety has confidence in it, and when it is cost-affordable.
    The key elements of mission-critical are: The network must 
be hardened to public safety requirements; the public safety 
mission-critical voice network must have the ability to 
broadcast and receive one-to-one and one-to-many.
    It must also have the ability to broadcast and receive 
without the network infrastructure being operative. This is a 
command-and-control absolute, the very essence of public safety 
communication.
    The network must also have back-up capabilities in the 
event of network loss.
    Fourth, funding is important for the construction of public 
safety broadband. The broadband network needed by public safety 
cannot be built without Federal funding support. H.R. 607 
recognizes this fact and offers a solution.
    This is welcome and very necessary.
    Mr. Chairman, the IAFC wholeheartedly supports H.R. 607. 
This bill provides public safety with the spectrum and funding 
to begin the hard work of constructing a Nation-wide public 
safety broadband network. Your bill is our vehicle to finally 
securing this critical resource.
    The 10th anniversary of the tragic events of September 11, 
2001, are little more than 5 months away. We urgently need to 
continue to move forward on a plan to make the vision of public 
safety broadband network a reality.
    I am available to respond to questions. Thank you.
    [The statement of Chief Parow follows:]
           Prepared Statement of Chief John E. ``Jack'' Parow
                             March 30, 2011
    Good morning Chairman King, Ranking Minority Member Thompson, and 
Members of the committee. I am Jack Parow, recently retired chief of 
the Chelmsford (MA) Fire Rescue Department and president and chairman 
of the board of the International Association of Fire Chiefs (IAFC) on 
whose behalf I appear. My organization represents the leadership of 
over 1.2 million firefighters and emergency responders. IAFC members 
are the world's leading experts in firefighting, emergency medical 
services, terrorism response, hazardous materials spills, natural 
disasters, search and rescue, and public safety policy. As far back as 
1873, the IAFC has provided a forum for members to exchange ideas and 
find the latest products and services available to first responders.
    I testify today in support of H.R. 607 (Broadband for First 
Responders Act of 2011). Currently, this legislation has 11 cosponsors 
and is bipartisan. Obviously, this is not part of a political agenda. 
It is legislation to benefit public safety agencies and the citizens 
whom they serve and protect. We are grateful for the efforts of this 
committee to keep this issue foremost in Congressional consideration. 
Public safety is an integral part of this Nation's homeland security. 
Local fire, emergency medical services (EMS) and law enforcement 
constitute the first response to incidents both small and large--
natural, accidental, and illicit. This legislation is needed to enable 
fire, EMS, and law enforcement to reach our highest goal--construction 
of a Nation-wide public safety wireless interoperable broadband 
network.
    For too long we have had an urgent need to improve public safety 
communications. Our business is incident management and the 
fundamentals here are command and control. These elements are not 
possible without sufficient communications capability. This was 
acknowledged in both the 9/11 Commission and Katrina reports which 
summarized the deficiencies of response to those catastrophic events.
    Today, public safety communications is served by Land Mobile Radio 
(LMR) of which there are some 55,000 separate agencies licensed to 
broadcast. These LMR radio systems are licensed over six or more bands 
of radio frequencies. Each public safety licensee can operate only in 
its own geographic area so as not to interfere with a licensee in 
another jurisdiction on the same frequency. Over the past 50 years, the 
Federal Communications Commission (FCC) has provided thin slices of 
spectrum for public safety as each frequency band became available. 
This arrangement has led to a patchwork of radio systems across the 
country that are mostly not interoperable which makes it difficult and 
expensive for agencies in the same or nearby jurisdictions to have 
interoperability. To solve this problem and promote Nation-wide 
interoperability, a National architecture for public safety 
communications is required to bring public safety communications into 
the 21st Century. To achieve a Nation-wide public safety wireless 
broadband network, key elements need to be in place.
    First, the network must have sufficient capacity. To achieve a 
Nation-wide public safety broadband network--connectivity coast to 
coast, border to border--10 MHz of D Block spectrum, currently slated 
for FCC auction, must be added to our 10 MHz of spectrum already 
licensed to public safety. That would give us a 20 MHz network. Public 
safety, under FCC regulation, is required to use Long Term Evolution as 
its broadband technology. To maximize the potential of this technology, 
a configuration of 20 MHz is needed. As you can see on the spectrum 
chart below, the currently licensed public safety spectrum abuts the D 
Block and is perfect for public safety.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With this configuration only, not with any other, can public safety 
be assured that it will have the ability to build the network it needs 
now and into the future. H.R. 607 can do this for us. Here we have a 
one-time opportunity, one chance to get it right.
    Secondly, the network must be under public safety control. Local 
control of the network by public safety agencies is critical. A single 
licensee utilizing a single technology with sufficient spectral 
capacity will ensure Nation-wide interoperability and allow us to 
effectively manage day-to-day operations, along with major incidents. 
We cannot have commercial providers deciding what is or is not an 
emergency or what is the priority. Public safety transmissions must go 
through without delay. The lives of our firefighters and medics depend 
on this necessity. A ``no service'' signal is not accepted in emergency 
operations.
    Public safety expects to enter into public-private partnerships. We 
will work with State, county, and local governmental agencies, Federal 
partners, electric and gas utilities, and others who respond to 
emergencies such as highway and water agencies. However, public safety 
must have control over the operation of the network in real time. 
Network control will give public safety certainty that it will have 
full, immediate, preemptive priority over its spectrum on a when-needed 
basis. This is a public safety imperative.
    Third, the network must be mission-critical at the outset. In the 
beginning, this system will handle only data and video. At some future 
time--years from now--we believe there will be a transition to mission-
critical voice. We all need to take a long-term view which means 
starting with sufficient spectrum so that we will have the ability to 
migrate to mission-critical voice in the future. This will occur when 
the technology becomes available, when public safety has confidence in 
it, and when its cost is affordable. Here are the key elements of 
``mission-critical'':
  <bullet> The network must be hardened to public safety requirements. 
        This means towers must be able to withstand elements that might 
        disable them. Towers in hurricane-prone areas and tornado 
        alleys must be designed accordingly. Back-up electrical power 
        must be available 24/7. Redundancy is necessary.
  <bullet> The public safety mission-critical voice network must have 
        the ability to broadcast and receive ``one-to-one'' and ``one-
        to-many.'' It must also have the ability to broadcast and 
        receive without the network infrastructure being operative. 
        This is called the ``talk around'' mode--also known as simplex. 
        This is a command-and-control absolute. You know very well that 
        we operate under extremely hazardous conditions. If for any 
        reason the network cannot provide connectivity, then we need 
        the capability to communicate without the network. This means 
        communicating in the simplex mode. Herein lies the very essence 
        of public safety communications.
  <bullet> The network must have back-up capabilities in the event of 
        network loss. We envision satellite capability when a tower is 
        disabled or other crippling malfunction occurs in the network. 
        Satellites also can cover remote areas that do not have 
        terrestrial broadcast facilities. Our mission is geography-
        oriented whereas commercial carriers are population-oriented.
    And, fourth, funding is important for the construction of a public 
safety broadband network. State and local government budgets are 
challenged. The broadband network needed by public safety cannot be 
built without Federal funding support. H.R. 607 recognizes this fact 
and offers a solution. According to the proposed legislation, both a 
Public Safety Interoperable Broadband Network Construction Fund and a 
Public Safety Interoperable Broadband Network Maintenance and Operation 
Fund would be established in the Treasury of the United States. The 
Secretary of Homeland Security would be required to establish a 
Construction Grant Program and to administer a Maintenance and 
Operation Reimbursement Program. All of this is welcome and necessary.
    We cannot underestimate how this public safety broadband network 
will revolutionize the fire and emergency medical services. For 
example, the network could provide live video to provide instantaneous 
situational awareness for mass casualty incidents, major hazardous 
materials spills, and real-time situational awareness for incident 
command as well as elected officials and other decision makers. In the 
area of emergency medical services, we expect digital imaging, portable 
EKGs, portable ultrasounds, and field blood work with a direct link to 
the hospital's emergency department. This would put a virtual physician 
in the back of the ambulance with the Emergency Medical Technician to 
expedite the proper life-saving treatment en route to the hospital. 
These types of applications for fire and EMS are only possible with 
broadband capability.
    One area of the bill which will need attention as the legislation 
moves forward is Section 207, which mandates migration of public safety 
entities in the 420 to 512 MHz band to 700/800 MHz frequencies. We 
understand the intent of this provision is to achieve long-term 
interoperability by consolidating band use by public safety. The IAFC 
supports planned migration to 700/800 MHz frequencies but is concerned 
with inclusion of mandatory time frames in which to achieve it.
    Mr. Chairman, the IAFC wholeheartedly supports H.R. 607. This bill 
provides public safety with the spectrum and funding to begin the hard 
work of constructing a Nation-wide public safety broadband network. 
H.R. 607 is our vehicle for finally securing this critical resource, 
and we want to work with you and your colleagues in the House of 
Representatives to further refine this legislation in order to enact 
the best possible bill into law. The 10th anniversary of the tragic 
events of September 11, 2001 is little more than 5 months away. Thus, 
we urgently need to continue to move forward on a plan to make the 
vision of a public safety broadband network a reality. Thank you for 
your personal commitment and leadership on this critical issue. I am 
available to respond to questions.

    Chairman King. Thank you, Chief. I think you are the only 
witness we ever had who finished exactly on time. You must have 
an inner clock or something. That was great.
    I just want to thank you and your organization for the 
support you have given us. If you would continue that over the 
next few months, it would be very helpful.
    Now, President Carrow is recognized for 5 minutes.

    STATEMENT OF WILLIAM ``BILL'' D. CARROW, PRESIDENT, THE 
 ASSOCIATION OF PUBLIC-SAFETY COMMUNICATIONS OFFICIALS (APCO) 
                         INTERNATIONAL

    Mr. Carrow. Good morning. Chairman King, Ranking Member 
Thompson and other Members of the committee, thank you for the 
opportunity to be here with you today.
    It is my deep personal and professional honor to come 
before this committee on this issue at this time, just a little 
more than 5 months ahead of the 10-year anniversary of the 
tragic events of September 11, 2001. The incidents of that day, 
now recognized around the world, simply known as 9/11, have 
forever changed us as a people.
    I come before the committee today as president of APCO 
International, the Association of Public-Safety Communications 
Officials. My professional position, I have served for 31 years 
with the Delaware State Police as chief of communications.
    So, I know a little bit about what we have accomplished in 
our State within our operability with radio. But what I would 
like to talk about is interoperability that is going to be 
needed in the broadband spectrum.
    APCO International is working in partnership with nine of 
the leading public safety associations to create consensus on 
public safety broadband legislation through its Public Safety 
Alliance, the PSA program, which includes two organizations 
represented by my fellow witnesses that are here this morning.
    The big seven State and local associations and 
approximately 3 dozen additional associations and industry 
partners, which represent a wide range of professionals and 
stakeholders, are in support of the PSA's position to allocate 
the D Block to public safety. Together, the alliance and 
supporting organizations represent over 2 million rank-and-file 
public safety personnel, communication workers, public 
technologists, State, county, and local elected and appointed 
officials and employees.
    Since 9/11, the people and technology barriers have been 
greatly reduced, but time and resource barriers are still very 
much present today. The looming likelihood of disasters 
reaching our shores, such as those recently occurring in Japan 
and New Zealand, should lead us towards an ever sense of 
urgency.
    Public safety and first responders are more united than 
ever in their endeavors to make America safer. We are better 
organized, more cooperative, less driven by ego and turf than 
before 9/11.
    While there is more work to be done, public safety is 
seeking greater strides in developing, adopting, and 
implementing new procedures and processes across agencies and 
jurisdictions. To say it simply, we need your help.
    As the title of this hearing suggests, coupling with your 
legislation, Chairman King and Ranking Member Thompson, the 
needs of first responders are not being met.
    Mr. Chairman, the truth is, it is better than it was before 
9/11, but it is still not nearly good enough for what first 
responders not only need, but what they deserve.
    We now have young people coming into public safety that use 
technology on a daily basis in their iPhones and smart phones 
and different gadgetry that surpasses anything that is 
available to public safety today. This is unacceptable and 
simply cannot stand.
    Public safety professionals know that more spectrum is 
needed for the broadband network that will provide a higher 
level of scrutiny, security, redundancy, priority access, 
roaming, geographic coverage and, more importantly, local 
control to meet the needs of first responders.
    The additional spectrum will also allow for partnerships 
with carriers and private industry partners to reduce cost and 
assist with the commercial build-out.
    The recent study by the Phoenix Center concluded that the 
assignment of the D Block to public safety is a unique 
opportunity to give first responders exactly what they need to 
get the job done.
    Chairman King, Ranking Member Thompson, on behalf of APCO 
and the Public Safety Alliance, I would like to thank you for 
recognizing public safety is still very much an outstanding and 
priority need for more radio spectrum and Federal funding to 
help us develop a Nation-wide interoperable public safety 
broadband network.
    Not only does this legislation fulfill a remaining unmet 
recommendation of the 9/11 Commission, but it also provides 
first responders with what is needed in the field every day, 
and especially during critical incidents of that magnitude.
    Indeed, the 9/11 co-chairmen are currently testifying 
before Senator Lieberman's committee, and understand that their 
statements include a very direct and urgent call for Congress 
to enact legislation to allocate the D Block to public safety 
with necessary funding.
    Again, I thank you for your time, consideration, and shared 
concern for our Nation's safety and security, for everyday 
emergencies and crime, to large-scale incidents and terrorism.
    As the leading association for public safety technology 
professionals, we at APCO International share your unwavering 
belief that technology, when currently governed, tested, and 
applied and managed properly, will be cost-effective and will 
also help us realize significant progress in our Nation's 
economic development, public safety delivery, and National 
security.
    I am happy to answer any questions that you may have at 
this time.
    [The statement of Mr. Carrow follows:]
                Statement of William ``Bill'' D. Carrow
                             March 30, 2011
    Chairman King, Ranking Member Thompson, and other Members of the 
committee, thank you for the opportunity to be here with you today. It 
is my deep personal and professional honor to come before this 
committee on this issue at this time, just a little more than 5 months 
ahead of the 10-year anniversary of the tragic events of September 11, 
2001. The incidents of that day, now recognized around the world as 9/
11, have forever changed us as a people, as Americans, in public 
safety, and as first responders.
    I come before the committee today as President of the Association 
of Public-Safety Communications Officials, International, also known as 
APCO International. My professional position is that of Communications 
Chief for the Delaware State Police, where I oversee a State-wide 
system of emergency and routine communications functions and services. 
I have served in the field of public safety communications for over 32 
years to date. In that time, we in public safety, and in State and 
local public service, have seen both incredible technological advances 
and the persistence of long-term, intractable barriers to progress. 
Since 9/11, the ``people'' and ``technology'' barriers have been 
greatly reduced, but time and resource barriers are still very much 
present. The looming likelihood of disasters reaching our shores, such 
as those that have so tragically occurred recently in Japan, New 
Zealand, and elsewhere in the world, should prompt us to ever-greater 
urgency in ensuring that full and comprehensive interoperability is 
indeed the case across all public safety functions and agencies.
    Though it has been almost 10 years, we shall not forget the loss of 
those brave men and women who entered burning, crumbling buildings when 
others fled, who stood below helping the fleeing, the injured, and the 
dead, and who went in afterward and began to clean up, continued to 
search for survivors, and began to try to restore a sense of calm and 
order in the midst of the chaos. We are still paying the price for the 
events of that day, in the health care costs of those who responded and 
who are now suffering, in the lives of our equally brave soldiers and 
service members who have fought, suffered injuries--and many have died 
in Iraq and Afghanistan--and we are paying the price as well for the 
stepped up vigilance, protection, and security that America must 
provide to meet the challenges that threaten our citizens, our 
families, our friends, our neighbors, and our children. None of us 
picked this battle. But, we all must step up to meet and exceed this 
challenge.
    Good things must come out of this, too, and you here in Washington, 
DC need to hear the good news as well as the bad, the successes as well 
as the shortcomings. So, let me tell you that public safety and first 
responders are more united than ever in their endeavors to make America 
safer. We are better organized, more cooperative, less driven by ego 
and turf than before 9/11. Now, its not perfect, of course, among fire 
and rescue services, law enforcement, emergency medical services, 
technology officers (both in public safety and across general 
Government), and civilians and sworn; the badges and the suits. There 
is considerably less risk today that a turf battle or a personality 
conflict among professionals will get in the way of getting to an 
answer and getting the job done, and there is little tolerance for this 
when it raises its ugly head. While there is more work to be done, and 
resources are always a problem, especially in the current economic and 
budgetary environment, we in public safety are seeing great strides in 
developing, adopting, and implementing new procedures, planning 
processes, exercise practices, professional standards and cooperative 
operating agreements across agencies and jurisdictions at every level 
of government, and increasingly extending to the private sector. And a 
certain degree of it was and is about changing attitudes, appreciating 
and considering different professional perspectives and priorities, and 
understanding the importance of working together to meet the new 
challenges. So, there is good news that we can come and report to you 
today.
    Now, to build on that momentum, we also need your help. As the 
title of this hearing suggests, coupled with your legislation Mr. 
Chairman, the needs of first responders are not being met. Mr. 
Chairman, after 32 years, and being a very positive person, that is a 
very hard comment for me to make in public. But the truth is, it's 
better than it was before 9/11, but it's still not nearly good enough 
for what our first responders not only need, but also deserve from us. 
We now have educated young people coming to the public safety 
profession with daily experience in using wireless devices and 
technology that provides them with the independence to seek and acquire 
information in real-time for all of their life activities. Yet they 
cannot do so in a mission-critical, public safety-grade environment 
professionally. This is unacceptable and cannot stand. We have 
investigators at crime scenes still using pads and paper to log in 
critical evidence and hopefully get it into digital form in a 
searchable database sometime later. We send firefighters into burning 
buildings without any schematics beforehand even as the capability is 
there to access all this information wirelessly. We respond to 
emergencies in schools equipped with fixed video, but cannot access and 
share that video remotely or wirelessly in a secure environment today. 
These are not just things that we need during emergencies and large-
scale incidents. We need these capabilities for public safety and first 
responders every day for routine activities and basic response. How 
many lives could we save if we could provide EMS and emergency room 
doctors with video capabilities to see injuries and provide guidance at 
the scene and while in transport to medical facilities? How much 
savings could we realize from reducing the amount of helicopter medical 
dispatches that are proven unnecessary after the fact because medical 
staff did not have a real-time view of the injuries suffered in a car 
accident on our Nation's roadways? Public safety professionals know 
that sufficient spectrum for broadband, that leverages commercial 
build-out of broadband infrastructure, but provides a higher level of 
security, redundancy, priority access, control, secure roaming and 
geographic coverage--what we refer to as mission-critical, public 
safety grade network capabilities--will allow us to meet these unmet 
needs.
    Chairman King, Ranking Member Thompson, this is why I am here 
today. To thank you for recognizing public safety's still outstanding 
and priority need for more radio spectrum and Federal funding to help 
us develop a Nation-wide interoperable public safety broadband network, 
as expressed in your legislation, H.R. 607; the Broadband for First 
Responders Act of 2011. Not only does this legislation fulfill a 
remaining unmet recommendation of the 9/11 Commission Report, to 
provide public safety with the ability to establish seamless 
interoperability throughout the United States. It has the great promise 
of ultimately providing first responders with what is needed in the 
field every day and during critical incidents. You need to know that 
the Nation's public safety officials, to include law enforcement, fire, 
and EMS, and all first responders are united in their top priority for 
realizing the enactment of legislation into law that finally makes real 
this Nation-wide, interoperable, mission-critical, public safety 
broadband network capability.
    APCO International coordinates the consensus development of nine of 
the Nation's major National public safety associations on public safety 
broadband legislation through its Public Safety Alliance (PSA) Program. 
Specifically, the PSA includes the International Association of Chiefs 
of Police, the International Association of Fire Chiefs, the National 
Emergency Management Association, the National Sheriffs Association, 
the Major Cities Chiefs Association, the Major County Sheriffs 
Association, the National Association of State Emergency Medical 
Services Organization, the Metropolitan Fire Chiefs Association and 
APCO International itself. Another approximately 3 dozen National 
associations representing a wide range of professionals and 
stakeholders are in support of the PSA's position to allocate the D 
Block to public safety and help fund the build out and sustainment of 
this Nation-wide network. Those supporting organizations include 
representation of over 2 million rank-and-file public safety personnel, 
communications workers, public technologists, State, county, and local 
elected and appointed officials and employees, and many others. The 
``Big 7'' National associations representing State and local government 
are closely aligned with the PSA and its supporting organizations, and 
though their previous opposition was widely reported, the National 
Fraternal Order of Police and National Emergency Number Association 
have both joined with the rest of public safety in supporting funding 
and allocation.
    For the benefit of those of you that do not know, APCO 
International was established in 1935 and is the largest public safety 
communications organization in North America, representing nearly 
16,000 members worldwide, most of whom are State or local government 
employees--from the highest management levels to the frontline 9-1-1 
call taker, and everyone in between--the professionals who build, 
supply, manage, and operate communications systems and facilities for 
police, fire, emergency medical services and other State and local 
government public safety agencies. APCO serves the needs of more than 
200,000 professionals in the public safety communications industry with 
training, frequency coordination, engineering, licensing, advocacy, and 
networking services and opportunities. APCO International is the 
largest FCC-certified frequency coordinator for Part 90, public safety 
pool channels, and appears regularly before the FCC, Congress, and a 
wide range of Federal and international entities on a variety of public 
safety communications issues. APCO includes law enforcement, fire, EMS, 
chief technology and information officers, and other public safety-
related professionals, and is primarily composed of experienced, front-
line technical experts that are charged with planning, implementing, 
and overseeing current communications systems in the field, and is 
solely focused on the area of public safety communications (including 
voice, data, video, radio, and information technologies). Thus, we have 
long provided an informed safe haven for public safety officials to 
research, discuss, debate, and come to a consensus on the issues of 
significance to our profession.
    Again, I thank you for your time, consideration, and shared concern 
for our Nation's safety and security from everyday emergencies and 
crime, to large-scale incidents and terrorism. As the leading 
association for public safety technology professionals, we at APCO 
International share your unwavering belief that technology, when 
correctly governed, tested, and applied, and when implemented and 
managed in a cost-effective manner, will help us to realize significant 
progress in our Nation's economic development, public safety delivery, 
and National security. I am happy to answer any questions that you may 
have at this time.

    Chairman King. Thank you, President Carrow.
    I now recognize Sheriff Fitzgerald to testify.
    Thank you, Sheriff.

   STATEMENT OF PAUL H. FITZGERALD, SHERIFF, AND FIRST VICE 
           PRESIDENT, NATIONAL SHERIFFS' ASSOCIATION

    Sheriff Fitzgerald. Good morning, Chairman King, Ranking 
Member Thompson, and Members of the committee.
    My name is Paul Fitzgerald, and I currently serve as the 
sheriff of Story County, Iowa, and as the first vice president 
of the National Sheriffs' Association. The National Sheriffs' 
Association represents the 3,083 elected sheriffs across the 
country and more than 20,000 law enforcement professionals, 
making us one of the largest law enforcement associations in 
the Nation.
    I am pleased to have this opportunity to appear before you 
today, and discuss the critical issues of public safety 
communications and whether our current communication needs are 
being met. Public safety communications has been a heavily 
debated and discussed issue over the last decade, particularly 
regarding the issue of interoperability among the Nation's 
first responders.
    Since the tragic events of September 11, 2001, there has 
been a significant need among our Nation's first responders to 
build and implement a robust Nation-wide public safety 
interoperable mobile broadband network that will improve our 
Nation's homeland security and provide first responders with 
new interoperable communications technologies that are urgently 
needed.
    It is a need that was recognized and recommended by the 9/
11 Commission, and it is the only recommendation from the 
commission that has yet to be implemented. The purpose of this 
hearing is to examine whether the needs of the first responder 
communications are being met.
    Mr. Chairman, simply stated, public safety currently lacks 
the ability to interoperably communicate amongst each other. 
There must be a solution to this critical problem, and the 
National Sheriffs' Association strongly believes that the 
solution lies in the implementation of a Nation-wide public 
safety interoperable broadband network.
    Both Government and non-Government studies have recently 
shown that public safety will not be able to obtain the 
necessary bandwidth and speed for our current and future needs 
based on 10 MHz of broadband spectrum alone. The additional 10 
MHz of spectrum will be combined with the current 10 MHz of 
broadband spectrum that is allocated to public safety to create 
a 20 MHz block of spectrum, to build a Nation-wide public 
safety interoperable broadband network.
    It should also be said that the D Block is located directly 
next to the current 10 MHz of broadband spectrum that is 
currently licensed to public safety.
    When built, the new Nation-wide public safety broadband 
network will be able to support a wide range of public safety, 
Government, critical infrastructure, and consumer applications, 
such as voice, video, and internet services.
    While current law mandates that the FCC, Federal 
Communications Commission, auction the D Block--an auction that 
originally failed in 2008--the National Sheriffs' Association, 
along with numerous public safety, State, and local 
intergovernmental and industry partners have urged Congress to 
swiftly pass legislation allocating the D Block directly to 
public safety.
    Currently, there are two measures in Congress which not 
only allocate the D Block to public safety, but also provide 
the funding necessary to create and implement a Nation-wide 
public safety interoperable mobile broadband network: H.R. 607, 
the Broadband for First Responders Act of 2011, introduced by 
Chairman King and Ranking Member Thompson in the House; and S. 
28, the Public Safety Spectrum and Wireless Innovation Act of 
2011, introduced by Senator Rockefeller in the Senate.
    These two bills take the critical steps necessary to assist 
the Nation's first responders in our homeland security and 
emergency preparedness efforts.
    It is rare--in fact, almost unheard of--that law 
enforcement, fire, EMS, dispatchers, mayors, Governors, county 
commissioners, State legislators all agree on an issue. 
However, the allocation of the D Block to public safety is that 
one issue.
    Moreover, the White House, the Department of Homeland 
Security and the Department of Justice have all come out in 
strong and unified support of the D Block allocation to public 
safety, thus also recognizing the significant need to create 
this broadband network.
    The time to act is now. The 10-year anniversary of 9/11 is 
quickly approaching.
    However, public safety continues to lack the ability to 
communicate effectively and efficiently amongst each other. 
Interoperability needs to be coast-to-coast, border-to-border, 
urban, suburban, and rural.
    The allocation of the D Block to public safety, as well as 
the allocation of funding needed to build the network, are the 
significant and necessary steps forward to achieving this goal, 
obtaining interoperability, and creating a Nation-wide public 
safety interoperable mobile broadband network.
    I want to thank you for the opportunity to come before you 
today and discuss the critical issues of whether the current 
communication needs of public safety are being met. I would 
also like to thank Chairman King and Ranking Member Thompson 
for their strong leadership on the issue of D Block allocation 
and their unwavering support of the Nation's first responders.
    I am happy to answer any questions the committee may have.
    [The statement of Sheriff Fitzgerald follows:]
            Prepared Statement of Sheriff Paul H. Fitzgerald
                             March 30, 2011
    Good Morning Chairman King, Ranking Member Thompson, and Members of 
the committee. My name is Paul Fitzgerald and I currently serve as the 
Sheriff of Story County, Iowa and as the first vice president of the 
National Sheriffs' Association (NSA). The National Sheriffs' 
Association represents the 3,083 elected sheriffs across the country 
and more than 20,000 law enforcement professionals, making us one of 
the largest law enforcement associations in the Nation. I am pleased to 
have this opportunity to appear before you today to discuss the 
critical issue of public safety communications and whether our current 
communication needs are being met.
    Public safety communications has been a heavily debated and 
discussed issue over the last decade, particularly regarding the issue 
of interoperability among the Nation's first responders. Since the 
tragic events of September 11, 2001, there has been a significant need 
among our Nation's first responders to build and implement a robust 
Nation-wide public safety interoperable mobile broadband network that 
will improve our Nation's homeland security and provide first 
responders with new interoperable communications technologies that are 
urgently needed. It is a need that was recognized and recommended by 
the 9/11 Commission--and it is the only recommendation from the 
Commission that has yet to be implemented.
    The purpose of this hearing is to examine whether the needs of 
first responder communications are being met. Mr. Chairman, simply 
stated, public safety currently lacks the basic ability to 
interoperably communicate amongst each other. In my county of Story, 
the local law enforcement, fire, and EMS does have interoperability 
amongst each other within the county lines. We are the exception in 
Story County--not the rule. The vast majority of public safety agencies 
Nation-wide do not have these capabilities. Furthermore, although local 
Story County first responders have interoperability, we are still 
unable to communicate with State law enforcement on the same bandwidth 
nor are we able to communicate with local first responders in 
neighboring counties.
    There must be a solution to this critical problem--and the NSA 
strongly believes that the solution lies in the implementation of a 
Nation-wide public safety interoperable broadband network.
    For us to be successful, we need allocation of the 10MHz of 
spectrum known as the ``D Block'' to public safety and sufficient and 
sustainable funding to implement the network.
    Both Government and non-Government studies have recently shown that 
public safety will not be able to obtain the necessary bandwidth and 
speed for our current and future needs based on 10MHz of broadband 
spectrum alone. The additional 10MHz of spectrum will be combined with 
the current 10MHz of broadband spectrum that is allocated to public 
safety to create a 20MHz block of spectrum to build a Nation-wide 
public safety interoperable broadband network. It should also be said 
that the D Block is located directly next to the current 10MHz of 
broadband spectrum that is currently licensed to public safety.
    When built, the new Nation-wide public safety broadband network 
will be able to support a wide range of public safety; Government; 
critical infrastructure and consumer applications such as voice, video, 
and internet services, including:
  <bullet> transmitting high-resolution pictures and building 
        blueprints,
  <bullet> on-the-scene telemedicine services,
  <bullet> emergency vehicle telematics, such as GPS tracking,
  <bullet> incident command and control operations,
  <bullet> two-way video conferencing; video monitoring and broadcast 
        services,
  <bullet> first responder health monitoring equipment,
  <bullet> emergency management programs,
  <bullet> large-scale evacuation management,
  <bullet> public alerting and alarm services,
  <bullet> enabling next generation 9-1-1.
    These capabilities mean: That deputies will be able to receive 
real-time video on their patrol car laptops from videos within a school 
in the event of a school shooting, enabling deputies to identify where 
to quickly and most appropriately respond; that firefighters will be 
able to download building schematics of a burning building to determine 
safe points of entry; and the EMTs will be able to transmit patients' 
vital signs en route to hospitals--saving time and lives.
    While current law mandates that the Federal Communications 
Commission (FCC) auction off the D Block spectrum--an auction that 
originally failed in 2008--the NSA, along with numerous public safety; 
State and local intergovernmental; and industry partners, have urged 
Congress to swiftly pass legislation allocating the D Block directly to 
public safety.
    Allocating the D Block to public safety enables public safety to 
know that the network and communication will be there when needed. 
Commercial networks do not and will not provide the reliability needed 
for mission-critical public safety communications--we cannot agree to 
an unproven, untested theoretical plan that puts our first responders 
and citizens in real jeopardy.
    Currently, there are two measures in Congress which not only 
allocate the D Block to public safety, but also provide for the funding 
necessary to create and implement a Nation-wide public safety 
interoperable mobile broadband network: H.R. 607--the Broadband for 
First Responders Act of 2011, introduced by Chairman King and Ranking 
Member Thompson in the House; and S. 28--the Public Safety Spectrum and 
Wireless Innovation Act of 2011, introduced by Senator Rockefeller in 
the Senate. These two bills take the critical steps necessary to assist 
the Nation's first responders in our homeland security and emergency 
preparedness efforts.
    It is rare, in fact almost unheard of, that law enforcement; fire; 
EMS; dispatchers; mayors; Governors; county commissioners; State 
legislators all agree on an issue. However, the allocation of the D 
Block to public safety is that one issue. Moreover, the White House; 
the Department of Homeland Security; and the Department of Justice have 
all come out in strong and unified support of D Block allocation to 
public safety; thus, also recognizing the significant need to create 
this broadband network.
    The time to act is now. The 10-year anniversary of 9/11 is quickly 
approaching; however, public safety continues to lack the ability to 
communicate effectively and efficiently amongst each other. 
Interoperability needs to be coast-to-coast; border-to-border; urban, 
suburban, and rural. The allocation of the D Block to public safety, as 
well as the allocation of funding needed to build the network, are the 
significant and necessary steps forward to achieving this goal; 
obtaining interoperability; and creating a Nation-wide public safety 
interoperable mobile broadband network.
    I want to thank you for the opportunity to come before you today 
and discuss the critical issue of whether the current communication 
needs of public safety are being met. I would also like to thank 
Chairman King and Ranking Member Thompson for their strong leadership 
on the issue of D Block allocation and their unwavering support for the 
Nation's first responders. I am happy to answer any questions the 
committee may have.

    Chairman King. Thank you very much, Sheriff Fitzgerald.
    I now recognize Mr. Simay for 5 minutes.

 STATEMENT OF GREGORY L. SIMAY, AT-LARGE DIRECTOR, LOS ANGELES 
          REGIONAL INTEROPERABLE COMMUNICATION SYSTEM

    Mr. Simay. Good morning, Chairman King, Ranking Member 
Thompson and Members of the committee, including Congresswoman 
Richardson, who invited me here.
    I am Greg Simay, a board member of the Los Angeles Regional 
Interoperable Communications Systems Authority. That is a 
mouthful. We call it LA-RICS.
    I support the general thrust of the comments of the other 
witnesses, and want to emphasize a few points besides.
    First, to begin with the D Block, I support the Homeland 
Security's provision for the D Block for the 10 MHz. I think 
that is an excellent first step.
    Recognize that within Los Angeles County, however, we do 
have a lot of UHF frequencies that are and will be in active 
use. They were allocated from previous television channels, and 
it was part of the--it resulted from the spectrum crowding in 
the Los Angeles area.
    One of the provisions of H.R. 607 calls for perhaps 
auctioning the frequencies below 512 MHz. That would be 
problematic in the case of Los Angeles County. But as far as 
reserving the D Block and taking the first crucial steps 
towards a broadband system, it is an excellent first step.
    Several general remarks. It is true that I think that 
eventually, technology will allow voice interoperability to 
ride on a 700 MHz system. In the meantime, UHF frequencies, UHF 
interoperability will probably be necessary for one more 
technological cycle, which is one of the thrusts of the LA-
RICS, in addition to the broadband thrust that it has, thanks 
to, again, the support of the Homeland Security Committee and 
the BTOP program.
    There will be some competing infrastructure. The Smart 
Grid, which will become more and more critical to utility 
infrastructure in the future, may tend to compete in those same 
bands with public safety. So, the need to coordinate among 
those competing uses, I think will be an important and emerging 
issue as we go on.
    For both Smart Grid and for interoperability in the 
broadband system, cybersecurity is a must in addition to 
physical security.
    Fortunately, with the P-25 standards, spoofing is a lot 
more difficult than before. But if you are talking about shared 
spectrum, you can have--emulation is a problem. Again, this 
committee is very well-positioned to take a cybersecurity look 
at the implications for broadband and frequency sharing.
    Probably the biggest challenge we face is not so much 
technological, but having the interoperability mind. The irony 
is, pre-9/11, interoperability was much easier to achieve prior 
to digital technology, but the interoperability mind was not 
there, except for a few visionary folks within L.A. County, 
including Sheriff Baca, for example, who had developed the 
LARTCS system.
    Fortunately, even though the technological challenges are a 
little tougher now with digital, we have solutions arising to 
meet them like P-25. The remaining solution is to develop that 
interoperable mind.
    In that regard, efforts like LA-RICS, which bring together 
independent cities, contract cities, county-level governments 
and other agencies, talking not only among board members but 
technical committees, operations committees that get together, 
legislative committees, debating the uses of spectrum.
    How much should be back-up spectrum? How much is needed 
when the network should fail? How much is needed when a 
firefighter is trapped in a building to be able to speak to 
firefighters outside? Where trunking fits in? All of that is 
going to be vigorously debated as we move towards negotiating 
and selecting a vendor.
    When you hear those, if you should hear those vigorous 
debates, I want two words to flash in your mind--``real 
progress''--because that is exactly what is needed to happen.
    To actually develop the personal relationships in building 
the system, building the relationships as you build the system 
is really what is going to make interoperability truly 
operational in the future. We are making great progress in L.A. 
County.
    I welcome any questions you may have.
    [The statement of Mr. Simay follows:]
                 Prepared Statement of Gregory L. Simay
                             March 30, 2011
    Hon. Members of the Committee on Homeland Security: Thank you for 
allowing me to share my thoughts on the critical issue your question 
captures, ``Are the public safety communications needs of our first 
responders being met?'' The short answer: Not yet. But, we are making 
good progress.
    County and local governments in Los Angeles County (L.A. County) 
are moving forward to build a radio voice system and a broadband data 
system that will allow them to seamlessly coordinate their responses to 
regional emergencies, as well as enable them to more effectively carry 
out their day-to-day operations. County and municipal agencies are 
working through the governance, financing, operating, and policy issues 
that are often more challenging than the technical ones.
    As the Committee on Homeland Security has been advocating, 
tremendous opportunities for improved public safety communications lie 
in three areas:
  <bullet> Interoperability.--Interoperability allows first responders 
        to exchange voice or data wirelessly on demand, in real time, 
        with appropriate physical and cybersecurity. In a major natural 
        disaster or terrorist incident, interoperability will mean the 
        difference between lives lost and lives saved: the lives of 
        first responders, and the lives of those they serve. This was 
        one of the major lessons learned following 9/11.
  <bullet> Wide area coverage.--Wide area coverage allows first 
        responders to remain in touch with their home base, even if 
        having to operate well outside their home territory. Police 
        officers especially appreciate this feature.
  <bullet> Broadband data.--Broadband data will allow first responders 
        to go well beyond exchanging text messages or doing license 
        checks, which represent the great majority of data 
        transmissions today. It will go beyond receiving graphics, as 
        useful as that will be. Broadband will allow streaming video 
        on-scene and downloaded plans for a burning building, an 
        example President Obama gave in his 2011 State of the Union 
        address.
    An integrated system making use of all three of these capabilities 
would go very far toward making our public safety communications equal 
to the challenges posed by natural disasters and terrorist incidents in 
major metropolitan areas. Now I'd like to discuss several topics with 
you:
  <bullet> Federal guidance needed to spur development of the 
        ``communications highway''.--Renewing the Nation's 
        communication infrastructure without breaking the bank, 
        overcoming operational barriers, reallocating the 700 MHz D 
        Block, ensuring cybersecurity, and coordinating spectrum needs 
        for Smart grid operations.
  <bullet> A brief overview of public safety operations.--
        Interoperability arising from wide-area operations, the need to 
        include agencies providing logistical support.
  <bullet> L.A. County is grappling with a huge public safety 
        communications challenge.--Huge populations scattered over many 
        agencies, geographically diverse, target-rich.
  <bullet> The LA-RICS response.--Coming to grips with the challenge of 
        creating a county-wide, integrated voice and data system for 
        first responders.
  <bullet> The ICIS response.--Independent cities banded together and 
        created a regional voice interoperable network.
    And then I'll offer some concluding remarks that will recap the 
most important action items.
  federal guidance needed to spur development of the ``communications 
                               highway''
    Before focusing on the public safety communication within L.A. 
County, it may be helpful to point out the Federal support that is 
needed for the public safety communications throughout the Nation:
  <bullet> Renewing the Nation's communications infrastructure, 
        transforming it into ``highways'' of interoperable voice and 
        data networks, but without breaking the bank.
  <bullet> Overcoming operational barriers.
  <bullet> Reallocating the 700MHz D Block.
  <bullet> Ensuring the cybersecurity of the public safety 
        communications grid.
  <bullet> Coordinating spectrum for Smart Grid initiatives with that 
        needed for public safety communications.
    The overarching challenge is to successfully translate recent 
technological advances into viable infrastructure that supports our 
first responders.
    Renewing the Nation's communications infrastructure, transforming 
it into ``highways'' of interoperable voice and data networks, without 
breaking the bank.--We need to renew our communications infrastructure 
as much as we need to repair roads and bridges, replace water mains, 
and rebuild power lines. The ``information highway'', while perhaps an 
overused phrase, does invite an analogy with the interstate highway 
system, a triumph of post-WWII Federal initiative. However, attempting 
to build a National system all at once could be a formidable challenge.
    A more feasible approach would be to adopt Federally the ``systems-
of-systems'' approach embraced by the State of California. It would 
require the widespread use of multimode (analog, digital, conventional, 
trunked) and multiband (VHF, UHF, 700 MHz, 800MHz) radios. Fortunately, 
several manufacturers (Harris, Guardian, Motorola, Thales) have begun 
to manufacture them.
    As importantly, each system must commit to be interoperable with 
the others. Through various mechanisms, the Federal Government could 
offer grants specifically for the purpose of achieving system 
interconnection. The Federal Government needs many agencies to be 
simultaneously working on their pieces of the National network--but 
they all have to connect together.
    Overcoming operational barriers.--The P-25 standards substantially 
address the technical challenges of communication among differing 
modulation schemes: Conventional, trunked, and analog systems. But 
substantial operational barriers remain. Agencies must allow others to 
come onto their dispatch channels. (And note: Thanks to P-25, with its 
use of individual ID's, spoofing is much harder.) SAFECOM could review 
its training standards with the goal of setting this as an expectation. 
Much work at the local levels will still be needed to change long-
standing cultural attitudes.
    Reallocating the 700 MHz D Block.--We fully support reallocating 
the D Block for public safety. Concerns about how to attain the revenue 
(estimated at $1.5 to 3.2 billion) that would have come from auctioning 
the D Block are understandable, given that Congress had already 
accounted for this revenue. However, auctioning the public safety 
spectrum below 512 MHz, as proposed in H.R. 607, would be highly 
problematic for L.A. County. The UHF channels for voice 
interoperability are all under 512 MHz.
    Ensuring the cybersecurity of the public safety communications 
grid.--The general advances in digital and communication technologies 
that have made cell phones possible have also made radio 
interoperability much more feasible, even in the absence of common 
frequency bands.
    Inherently, a radio system's use of computers and sophisticated 
software opens the door to cyber attack. Interoperable systems are more 
vulnerable to such attacks owing to their greater interconnectedness. 
The Federal level is best equipped to set cybersecurity standards that 
help determine if existing encryption schemes are adequate.
    Coordinating spectrum for Smart Grid initiatives with that needed 
for public safety communications.--In coming years, more utilities will 
have two-way communications with their electric meters and the 
customers they serve, often making use of the 700 MHz bandwidth. (Fiber 
optics may also be employed, but rights-of-way barriers and high 
installation costs will often favor a wireless approach instead.)
    The Federal level is best equipped to allocate enough spectrum for 
both Smart Grid applications and public safety communications. A 
guiding principle should be to protect current spectrum for public 
safety until alternative technologies are fully vetted.
brief overview of public safety communications from a first responder's 
                             point of view
    Even in local incidents that first responders can handle with well-
defined policies and procedures, wireless voice communications are 
essential. Dispatchers need to alert their first responders; and the 
first responders, in turn, need to provide their dispatchers status 
updates. First responders at the scene need to speak with each other, 
even if out of normal voice range. Responders within a building need to 
communicate with nearby responders outside the building even if the 
radio cannot access the network; that is, the radio on occasion needs 
to function as a walkie-talkie.
    Often, one first responder has to immediately alert many other 
first responders to a particular situation; most importantly, to come 
to the aid of injured first responders. Supporting one-to-many 
communications is therefore a crucial requirement.
    Cell phones and radios are the two basic ways to achieve wireless 
communications. In recent years, cell phones have made their systems 
more reliable and resilient, and have improved and extended their 
coverage. They also provide seamless communications among their users. 
But for first responders, cell phones still fall short in a crucial 
area: Instantaneous one-to-many communications when fleet-wide 
situational awareness is needed. They are too slow and reach too few 
people in this particular instance. For at least one more technological 
cycle, radios will remain the communications medium of choice for first 
responders.
    Cell phones can be a valuable supplement to first responder 
communications, and it is likely that future developments will see cell 
phones and radios integrated in one device. Also, cell phones are 
coming into widespread use among non-safety city operations, where one-
to-many communications are not as important. But, non-safety operations 
would need to retain enough radios to communicate with first responders 
during an emergency.
    Communication needs arising from first responders' wide-area 
operations.--Communications must also support responses to incidents 
that extend over a wide area or that occur outside the first 
responders' normal service territory: A police officer serves a warrant 
in another jurisdiction, and the person served threatens to turn 
violent. Meanwhile, other police officers raid a desert meth lab far 
from their jurisdiction; and still others pursue a fleeing suspect 
through several cities.
    A mountain wildfire mushrooms, triggering a coordinated response 
from several different fire fighting agencies. A hazardous material 
spill occurs on a stretch of freeway, prompting an emergency shutdown 
of the affected portion of the freeway.
    In these examples, the need for two communication capabilities 
becomes apparent: Wide-area coverage and interoperability. Wide area 
coverage and interoperability can have an especially great impact on 
the number of lives first responders can save--including their own--
when they are grappling with regional emergencies: A major earthquake 
hits Southern California; a freight train derails and releases 
hazardous gases; a terrorist cell succeeds in releasing a dirty bomb.
    As first responders know too well, regional disasters unfold 
rapidly and unpredictably, requiring responses measured in seconds. 
Without interoperability, whole minutes could pass as a dispatcher or 
other third-party connects first responders from different agencies.
    In a regional disaster, many agencies activate their Emergency 
Operations Centers, where diverse agency departments come together and 
coordinate their responses under an Incident Command System. 
Interoperability would make such communications more efficient, 
especially at the field level.
    The need to communicate with those providing logistical support.--
Regional disasters highlight the need for rapid logistical support from 
non-first responder agencies; for example, heavy equipment to assist 
with search-and-rescue operations, or a diesel generator to power an 
emergency shelter until normal power returns. Without power, 
serviceable roads, and other resources, first responders will be 
greatly limited in their ability to respond.
    Logistical and inter-agency support is also needed in many lesser, 
day-to-day incidents:
  <bullet> Fire fighters need the electrical power cut to a burning 
        building to forestall electrocution hazards.
  <bullet> Police officers need traffic cameras to track the movements 
        of a fleeing suspect.
  <bullet> Fire fighters may need to bulldoze a new firebreak. Police 
        officers may need to barricade several streets.
  <bullet> A local police department and airport security mount a 
        coordinated capture of a would-be thief in the airport's 
        parking lot.
    Bear in mind that most police and fire departments are too small to 
contain their own logistical support, such as heavy equipment or 
emergency generators. They depend on public works departments; water, 
gas, and electric utilities; and the Red Cross and like agencies.
    Interoperability should extend as well to those that can be 
especially impacted by an incident, such as a school district, a major 
sporting venue (like the Staples Center), a major industrial site (like 
an oil refinery), and an airport (like the Van Nuys Airport). Often, 
those impacted by an incident may also be able to serve as a resource; 
e.g., as an evacuation center.
   l.a. county is grappling with a huge public safety communications 
                               challenge
    Developing an integrated public communications system within L.A. 
County is similar to developing one for a sizeable nation prone to 
natural disasters and an offering an attractive target for terrorists.
    Los Angeles County has a high population scattered across many 
agencies within a diverse geographical area.--Los Angeles County (L.A. 
County) covers 4,084 square miles, including over 2,600 miles of 
unincorporated area. It has more than 10 million residents: a 
population greater than 42 of the 50 States. It has 80 miles of 
coastline, 1,800 square miles of rugged mountains, expanses of high 
desert, and Catalina Island. In its size, population, and geographical 
diversity, L.A. County could make a respectable country.
    Within L.A. County are 88 cities and several unincorporated areas, 
served by 50 law enforcement and 31 fire service agencies, as well as 
paramedics and other medical first responders. L.A. County has over 
34,000 first responders, not counting the non-safety municipal services 
and other logistical support.
    The Los Angeles region is designated as a high-threat area by 
Homeland Security.--L.A. County has port facilities, international and 
regional airports, sports stadiums, high-profile media industries, and 
various other critical facilities. Combine these with a huge 
concentrated population, and you have an attractive target for would-be 
terrorists. Due to California's history of natural and human-made 
disasters, the State divided itself into seven mutual aid regions. The 
Sheriff of Los Angeles County is the Emergency Coordinator for both Los 
Angeles and Orange Counties, which serves a combined population of over 
16 million.
    In L.A. County, the various public agency radio systems are 
scattered across four incompatible frequency bands using different 
technologies and radio equipment. Interoperability today requires 
exchanging radios among first responders or implementing a complex 
system of patches that can temporarily tie two or more radio 
frequencies together. Although patches have been a great help, they are 
cumbersome, time-consuming, and sometimes unreliable. The Los Angeles 
Regional Tactical Communications System (LARTCS) provides some ability 
to communicate with city, county, State, and Federal agencies in the 
event of a large-scale incident.
                          the la-rics response
    In the years following 9/11, agencies within L.A. County mounted 
two major responses to achieving an integrated, interoperable radio 
system:
  <bullet> Los Angeles Regional Interoperable Communications Systems 
        Authority (LA-RICS Authority, or simply LA-RICS) See 
        www.larics.org.
  <bullet> Interagency Communications Interoperable System (ICIS) Joint 
        Powers Agency (ICIS JPA or simply ICIS) See www.icis.org.
    As counties and other agencies seek to capture the benefits of 
interoperability and manage the costs, a variety of competing models 
has arisen. Some organizations, like LA-RICS, have adopted a model 
geared to a single system serving a large area, usually a county. 
Others, like ICIS, have adopted a model more geared to a systems-of-
systems approach with different systems tailored to the needs of 
different types of agencies.
    Brief history of LA-RICS.--In 2005, L.A. County formed a Regional 
Operability Steering Committee and engaged RCC Consultants to conduct a 
county-wide radio interoperability study. RCC Consultants concluded 
that interoperability between public safety agencies throughout the 
L.A. County region would best be achieved through the creation of a 
shared, region-wide single platform voice and data radio system.
    By 2009, the Los Angeles Regional Interoperable Communications 
Systems Authority (LA-RICS) had been established, along with a 17-
member Governance Board and several standing committees, including 
Technical, Operations, and Finance.
    LA-RICS Mission.--For voice interoperability, the mission of LA-
RICS is to provide a unified voice and data communications platform for 
all first responders in the region. The platform will support day-to-
day communications needs within individual public safety agencies, and 
also provide instantaneous communications among general agencies in the 
event of a man-made or natural disaster.
    As you know, SAFECOM is a Homeland Security program that provides 
research and guidance to public safety agencies on more efficient and 
effective interoperable communications systems. LA-RICS is committed to 
meeting the highest SAFECOM standards.
    For data, LA-RICS' mission is to deploy LA-SafetyNet, a 700 
megahertz (MHz) public safety mobile broadband network across L.A. 
County.
    The LA-RICS Model.--The LA-RICS model works best for cities unable 
to build their own individual system, or in a position to greatly 
benefit from facility sharing. Many cities are wholly dependent on L.A. 
County for their police and fire services, and use radio systems that 
are more than 20 years old. Especially in today's economy, many of 
these ``contract cities'' could not replace their radio systems and 
achieve interoperability without county assistance.
    Other cities, like Los Angeles (an independent city), may find that 
facility sharing is especially advantageous. Also, by standardizing 
equipment over a wide area, LA-RICS offers uniform operations and 
maintenance as well as the buying leverage that comes from making 
large-volume purchases. Certainly there is much to be said for 
eliminating the duplication of costs and effort involved in maintaining 
separate systems.
    LA-RICS governance.--LA-RICS attempts to achieve a balance among 
several of its key constituencies:
  <bullet> Balance between Chief Executives and Public Safety 
        representatives.
  <bullet> Relative balance between the County of Los Angeles, the City 
        of Los Angeles, as well as other independent and contract 
        cities; and a relative balance among independent and contract 
        cities.
  <bullet> Inclusion of associations that represent member agencies 
        that may not otherwise be members of the JPA's Board of 
        Directors.
  <bullet> Inclusion of significant non-city/county governmental 
        stakeholders.
    The resulting Board structure encompasses 17 members:
    1. The City of Los Angeles City Administrative Officer,
    2. The City of Los Angeles Fire Chief,
    3. The City of Los Angeles Police Chief,
    4. The City of Los Angeles Chief Legislative Analyst,
    5. The County of Los Angeles Chief Executive Officer,
    6. The County of Los Angeles Fire Chief,
    7. The Sheriff of Los Angeles County,
    8. The County of Los Angeles Department of Health Services 
        Director,
    9. The Los Angeles Unified School District Police Chief,
    10. The City of Long Beach,
    11. The Los Angeles Area Fire Chiefs Association,
    12. The Los Angeles County Police Chiefs Association,
    13. The California Contract Cities Association,
    14. At Large,
    15. At Large,
    16. At Large,
    17. At Large.
    One At Large Director (and one Alternate Director) must represent a 
Member city that operates both independent police and fire departments. 
Two At Large Directors (and two Alternates) must represent Member 
cities that operate at least one independent safety department (police 
or fire). One At Large Director (and one Alternate Director) must 
represent a Member city not otherwise represented on the Board.
    LA-RICS Funding--Voice.--To date, slightly over $141 million in LA-
RICS funding for voice interoperability has come from the County, City 
of Los Angeles, and several grants from Homeland Security, State 
Homeland Security, the Urban Area Security Initiative and the 
Department of Commerce:
  <bullet> The Public Safety Interoperable Communication (PSIC) Grant, 
        in the amount of $22,278,788.--PSIC is a one-time, matching 
        grant program. Only planning costs are allowed under this 
        grant, but they include engineering designs, site assessment 
        plans and system design plans.
  <bullet> Urban Area Security Initiative (UASI) Grant, in the amount 
        of $85,422,803; and the State Homeland Security Grant program 
        (SHSGP), in the amount of $19,539,428.--UASI and SHSGP grants 
        have been awarded each year since 2003. Allowable costs include 
        plans and designs; radio equipment costs, including 
        installation; and, subject to justification, construction of 
        communication towers. In general, though, construction costs 
        are disallowed.
  <bullet> Justice Assistance Grant (JAG) American Recovery and 
        Reinvestment Act (ARRA), in the amount of $7,051,984 for the 
        City of Los Angeles and $7,051,984 for L.A. County.--JAG ARRA 
        is a one-time grant allocation for the improvement of 
        communication sites. Sites have been identified, and work will 
        proceed on identified sites following the completion of the 
        associated environmental impact reports.
    In July 2008, LA-RICS had publicly estimated a system cost of $600 
million for the system supporting voice interoperability. As part of 
its procurement process, LA-RICS has not yet used figures from the 
actual vendor bids; however, the $600 million remains a useful planning 
figure.
    The funding challenge is to close the (nominal) $459 million gap 
between $141 million and $600 million. It will not be easy. LA-RICS has 
looked at various cost-allocation schemes among the cities--every one 
of them are insupportably burdensome, especially now. Going to the 
voters is also problematic, given the tough economy.
    LA-RICS Funding--Data.--Funding for LA-RICS' LASafetyNet broadband 
network is, fortunately, largely covered with the Broadband Technology 
Opportunities Program (BTOP) American Recovery and Reinvestment Act 
(ARRA) Grant, in the amount of $154,640,000. The BTOP grant is one-time 
and only for the broadband portion of the system. Allowable costs 
include, planning, equipment, project management, and construction. The 
only disallowed costs are for operations and maintenance.
    LA-RICS progress.--In July 2008, LA-RICS had also estimated a 5-
year completion date, beginning in 2008 and ending in 2012. However, 
the 5-year time frame does not start until there is a contract with a 
vendor. At present, bids from two major vendors (together with their 
associated company teams) have been evaluated, and vendor negotiations 
are about to start. So the time frame has shifted to 2012-2016.
                           the icis response
    As mentioned earlier, the Interagency Communications Interoperable 
System (ICIS), represents another interoperability initiative that 
occurred within L.A. County following 9/11.
    Brief History of ICIS.--In 2002, Burbank, Glendale, and other 
cities were faced with a pressing need to replace their aging radio 
systems. The tragedy of 9/11 had made it very clear that public 
agencies had to do a better job of working together, and radio 
interoperability was recognized as key to achieving this goal. But, 
widespread radio interoperability had not yet been achieved within Los 
Angeles County. All municipal radio systems were functioning as 
islands.
    Glendale, with the most urgent need to replace its system, proposed 
that cities replace their aging radio systems with ones that would not 
only be new, but interoperable as well. Burbank readily agreed; its 
technical staff had also appreciated the potential of interoperability. 
The cities' new, trunked radio systems could be linked together by 
employing microwave network technology at a modest incremental cost.
    It rapidly became clear that an organizational framework was needed 
where Burbank, Glendale, and others could equitably address shared 
cost, cost sharing, allocation of roaming capacity, and other 
interagency issues. Thus came about the Interagency Communications 
Interoperability System Joint Powers Authority (ICIS JPA, or simply 
ICIS) in 2003.
    ICIS Mission.--The mission of ICIS is to provide independent Los 
Angeles County cities with seamless, wide-area radio voice 
communications among their first responders, selected targets, and 
those providing them with logistical support. Note that establishing a 
broadband network is not among ICIS' goals at this time.
    The ICIS Business Model geared to independent cities.--The ICIS 
business model for voice interoperability tailors itself to the 
strengths and concerns of independent cities:
  <bullet> Individual cities fund, build, and maintain their own radio 
        cells. Each city retains complete ownership and control of its 
        own radio infrastructure.
  <bullet> Under the auspices of a joint power agency, individual 
        cities link their individual cells together to create a 
        regional network offering wide-area coverage and seamless 
        communications among different agencies.
  <bullet> By design, individual cells would still be able to function 
        even if the ICIS networking among them should fail. If the 
        connection with the ICIS network is lost, each city's radio 
        system continues to operate, merely losing the ability to roam 
        away from its home system.
    Agencies can choose to participate in ICIS under several levels of 
commitment, ranging from infrastructure-provider to occasional user for 
mutual-aid. Cities can also choose whether to restrict interoperability 
to first responders like police and fire, or to extend it to other 
departments like Water and Power or Public Works.
    The advantages of the ICIS model can be considerable:
  <bullet> Because each city has already built its own cell, the cost 
        of joining these cells into a wider network is incremental, 
        generally 5 percent or so of the cost of building a cell.
  <bullet> The benefits, mainly wide area coverage and seamless 
        communications, are significant and easy to distribute on an 
        equitable basis.
  <bullet> Cities retain local control over their cell, including its 
        service reliability, frequency licenses. Each city still 
        decides to what extent its radio system addresses special 
        conditions, such as hilly terrain. Each city still decides to 
        what extent it extends radio communication beyond first 
        responders.
    The ICIS business model can accommodate wide differences in both 
the timing and funding of radio cells among independent cities. By 
being able to wait until a particular independent city is in a position 
to replace its radio system, ICIS can offer interoperability on an 
incremental basis.
    To realize the advantages offered by the ICIS business model, 
participating cities must be willing to exert discipline in several 
ways:
  <bullet> Each city must fund, build, and maintain its own cell.
  <bullet> Each cell within the ICIS network must adopt certain 
        standard communication protocols, and must be compatible with a 
        modern, trunked radio system.
  <bullet> Each city must closely coordinate its activities with those 
        of the others so that radio equipment and frequency assignments 
        are up-to-date and not in conflict.
    These are not easy criteria to meet, especially having the 
discipline to self-fund a municipal radio system. Therefore, within 
L.A. County, ICIS has a limited though important application; and ICIS 
is committed to working with LA-RICS in the development of a final 
regional solution.
    ICIS governance structure.--Each city joining ICIS as full members 
has a seat on the ICIS Governing Board, which meets at least monthly 
and follows the requirements of the Brown Act. Several standing 
committees provide the Board guidance: Operating, technical, and 
legislative. Committee memberships draw from the staffs of the member 
cities. A compensated Executive Director represents ICIS to various 
outside agencies, as well as coordinates the efforts of the committee 
staffs.
    ICIS Funding.--ICIS has secured about $6,550,000 in grant funding. 
Part of this success comes from the ICIS cities' ability to 
successfully leverage their own local, radio replacement dollars (about 
$60 million) into a regional, interoperable system.
  <bullet> 2008 COPS Technology $561,000 Congressional appropriation.--
        ICIS upgraded its Master Site to P-25.
  <bullet> 2008 COPS Technology Senate appropriation in the amount of 
        $88,854.--ICIS integrated its trunked radio system to the P-25 
        Master Site.
  <bullet> 2009 SHSGP Grant in the amount of $2,200,000.--To be used 
        for microwave looping and one or more repeater sites within the 
        San Gabriel Valley.
  <bullet> 2010 SHSGP grant in the amount of $1,000,000.--For 
        additional microwave looping as well as a backup generator for 
        the Master Site as well as one for the Whittier Site.
  <bullet> 2010 Department of Justice BJA Grant $500,000 Congressional 
        appropriation.--For a microwave link to the Pasadena microwave 
        site as well as for ICIS system narrow banding.
  <bullet> 2011 UASI Grant in the amount of $2,200,000.
    Each ICIS member city contributes $40,000 per year to support ICIS 
operations and maintenance budget.
    ICIS Progress to date.--Besides Burbank and Glendale, ICIS today 
includes the cities of Culver City, Beverly Hills, Montebello, 
Pasadena, and Pomona: Seven cities in all. The Verdugo Dispatch Center 
recently joined ICIS, bringing radio interoperability to fire 
operations not only among Burbank, Glendale, and Pasadena, but also 
Alhambra, Arcadia, Monrovia, Monterey Park, San Gabriel, San Marino, 
Sierra Madre, and South Pasadena. Through a Council-approved radio 
maintenance arrangement with Burbank, the Bob Hope Airport also enjoys 
radio interoperability.
    Today, through its subscriber relationships, the ICIS system serves 
more than 20 agencies and over 1 million citizens in the L.A. area. 
Outdoor coverage is good throughout much of Los Angeles County, 
particularly those areas most frequented by its members. This July, 
ICIS will have achieved narrowbanding (from 25 kHz to 12.5 kHz). ICIS 
members are actively making their individual systems fully compliant 
with P-25; the ICIS backbone has already achieved P-25 compliance.
                           concluding remarks
    At this point, we hope you'll agree that the interoperability and 
broadband efforts within L.A. County represent substantial progress in 
the establishment of a regional solution for major metropolitan areas. 
The interaction between a county-wide system in-the-making (LA-RICS) 
and a limited-but-operational regional system (ICIS) will result in 
robust solutions that can translate to other areas of the country.
    This process can be helped along at the Federal level through 
several initiatives:
  <bullet> Adopt Federally the ``systems-of-systems'' approach embraced 
        by the State of California. It would require the widespread use 
        of multimode (analog, digital, conventional, trunked) and 
        multiband (VHF, UHF, 700 MHz, 800MHz) radios.
  <bullet> Through various mechanisms, the Federal Government could 
        offer grants specifically for the purpose of achieving system 
        interconnection.
  <bullet> Agencies must allow others to come onto their dispatch 
        channels. SAFECOM could review its training standards with the 
        goal of setting this as an expectation. Much work at the local 
        levels will still be needed to change long-standing cultural 
        attitudes.
  <bullet> Auctioning the public safety spectrum below 512 MHz, as 
        proposed in H.R. 607, would be highly problematic for L.A. 
        County. The UHF channels for voice interoperability are all 
        under 512 MHz.
  <bullet> Set cybersecurity standards that help determine if existing 
        encryption schemes are adequate.
  <bullet> The Federal level is best equipped to allocate enough 
        spectrum for both Smart Grid applications and public safety 
        communications. A guiding principle should be to protect 
        current spectrum for Public safety until alternative 
        technologies are fully vetted.
    Thank you for the opportunity to address this committee.

    Chairman King. Thank you, Mr. Simay.
    I want to thank all the witnesses for their testimony, and 
also for all of you for keeping within the 5-minute limit. I 
would hope that the Members on the panel here will take notice 
of the witnesses' brevity.
    [Laughter.]
    Chairman King. I also want to thank law enforcement groups 
throughout the country who have worked with us on this, and 
other first responder organizations. The New York Police 
Department has been very active with Chief Dowd, and we want to 
acknowledge Inspector Spadaro, who is here today from the NYPD, 
and thank your department for the tremendous work they have 
done on this issue.
    My first question would be to Sheriff Fitzgerald.
    Sheriff, in your testimony, you reference how, in your 
county of Story, the local law enforcement, fire, and EMS do 
have interoperability with each other within the county lines.
    Could you go into more detail how you were able to achieve 
this? But also, follow up with that by explaining why you were 
unable to communicate with State law enforcement.
    Sheriff Fitzgerald. Chairman King, a number of years ago, 
Story County went to an 800 trunk system. Within Story County, 
fire, EMS, and law enforcement all joined and moved to the 800 
system. So, within Story County, we have interoperable 
communications on voice among all three entities.
    The problem lies that the surrounding counties--and Story 
County is really not the rule, it is the exception here--the 
surrounding counties are still on the lower band frequencies 
and use other bands of spectrum to communicate on. Now, the 
problem this causes for rural Story County, as central part of 
America, is we rely greatly on first responder mutual aid and 
assistance.
    So, when we have a situation where we have to work with the 
State patrol, or we have an issue, whether it is a fire 
response or a crash, or another law enforcement situation on 
the bordering part of the county, when we have mutual aid from 
the other counties, we do not have the communication outside 
our squad cars.
    Inside our squad cars, we have to have multiple radios, so 
we can talk to the multiple emergency responders that we will 
be working with.
    However, once we are outside the car, we are virtually 
dead. In order to communicate, we have to go back to the car 
and supply that communication.
    Chairman King. Mr. Carrow, in your testimony, you noted how 
first responders respond to emergencies in schools equipped 
with fixed video, but cannot access and share that video 
remotely or wirelessly in a secure environment today.
    Can you explain how you envision a National public safety 
broadband network working?
    Mr. Carrow. For video?
    Chairman King. Yes.
    Mr. Carrow. Well, I know in our State, we are exploring it 
right now, where, as I said in the testimony, almost every 
school does have fixed video.
    When we get on the scene, we do not have any capability 
currently to view that same video, whether it be in a 
communications center, in a mobile communications van on scene, 
or what have you. In my opinion, that is mission-critical.
    If you have a Columbine-style event unfolding before you, 
if you could simply lock in, maneuver the cameras, and see 
exactly what is going on before you put your people in harm's 
way, then you have a better operating picture of what is going 
on in that school, who is held up where, how many victims you 
have possibly, and so forth.
    I would envision, with a secure public safety broadband 
network, with the key being secured, you would have access over 
I.P. to go ahead and not only view the cameras, but also 
manipulate them just as well as you could within the building.
    Chairman King. How does your group work with the Federal 
Government in coordinating first responder communications? You 
have such a variety of members within your organization.
    Mr. Carrow. Well, basically, our mainstay is our frequency 
coordination that APCO has been known for for 76 years. Of 
course, we do not coordinate for the Federal Government, but we 
do have Federal partners that we deal with on at least a weekly 
basis, to coordinate mostly R.F. communications at this time.
    But again, our big onus here is for the National broadband 
plan, starting out as data and, hopefully, down the road, 
envision that migrating over to mission-critical voice.
    Chairman King. I would just ask you, any of you who want, 
to give examples of how the type of interoperability that we 
are looking for, because it was not available, how that 
adversely impacted you in any situation?
    Mr. Carrow. Well, I can make one mention personally. When 
the C-5 crashed in Dover, Delaware, several years ago, I was on 
that scene that morning with our mobile communications van.
    The first thing I noticed is--and we have a full State-wide 
800 MHz trunk digital radio system. Everybody in the State of 
Delaware is on that as first responders, including our Federal 
partners, FBI, DEA, and U.S. Marshals.
    So, we do come prepared to a scene to, ``plug-and-play,'' 
if you will, using your own radio, but you switch to mutual aid 
talk groups.
    What I noticed that morning, and what is currently lacking 
to this day, is the fact that we have to rely on a computer-
aided dispatch system back in the 9-1-1 center that we could 
view in the mobile command center, so we knew what boots we had 
on the ground for at least an hour previous to us arriving with 
the mobile communications van.
    All of a sudden, as the major television networks arrived 
on the scene, they do what they are trained to do. They get a 
cell phone line, and they leave it open with their control room 
back at their headquarters or their control station.
    So, that brought the cellular network basically to a 
screaming halt. That made us lose our connectivity to get into 
our computer-aided dispatch system.
    If we had a public safety-run, National broadband network, 
we would be able to control that, and cellular use would not 
adversely affect it.
    Chairman King. Thank you all for your testimony. I 
recognize the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Very rarely do we get witnesses who pretty much agree with 
each other on a panel.
    [Laughter.]
    Chairman King. So, it is refreshing.
    But I think that the point that the Chairman and I, by co-
sponsoring this bill, is we think that this is so mission-
critical to first responders, that we absolutely have to put 
the politics aside.
    I am from an area that was ravished by Katrina, as I said. 
I saw first-hand what the lack of communication can do to 
people who want to help, but they do not know how to do it.
    So, and I guess I will go down from the chief all the way. 
There is no objection in your professional relationship or work 
that a dedicated public safety spectrum like we are talking 
about here is the right thing to do.
    I will start with you, Chief.
    Chief Parow. We wholeheartedly feel that it is the right 
thing to do to have a dedicated spectrum. I mean, we have 
suffered for--I have been in, going on 34 years now, in the 
service. Interoperability has always been an issue.
    You know, we operate currently on about six different 
splinter bands across the spectrum. In my community, when we 
have mutual aid, there are two communities, two cities that 
come into my community that we cannot talk to on radio.
    As a matter of fact, we have a radio box that we bring to 
the fire scene so we can hand them radios, so we can talk to 
them.
    Just recently, we were able to communicate back and forth 
with the police department. So, that was a big move to us.
    But in Massachusetts, of course, we cannot talk to the 
State police. We cannot talk to emergency management or any of 
the other State entities. So, this was a welcome thing that we 
do need. We need it badly.
    Mr. Thompson. Sheriff.
    Sheriff Fitzgerald. Without question, this is something 
that all first responders across America need. Not only is it 
important for the large cities and large urban areas--and you 
yourself stated the damage and the devastation that you had 
with Hurricane Katrina, when it went through your State.
    Last year in Iowa, a couple of counties away, we had a 
tornado, an F5 tornado, go through a small community, and 
almost eliminated that community from the map.
    I sent deputies up there to work for 2 weeks to help with 
the first response and the on-going response as the community 
struggled to come back together.
    But with that response there was law enforcement, police, 
and deputies from all over the State. There was fire agencies 
from all over the State, and there was EMS from all over the 
State, as well as emergency management.
    However, the majority of the communication, because of the 
lack of interoperability we had, was sent like it was many 
years ago, was sent with runners from one part of the town to 
the other to deliver a message from the command post at 
somebody's stationing command--without interoperability and 
without communication.
    In the past, when first responders needed spectrum, the FCC 
has been great to give us spectrum. The problem is, they give a 
spectrum in different bands, so that we have to have multiple 
devices and multiple ways to communicate.
    This is an opportunity, that by giving the D Block, the 10 
MHz of spectrum, to the adjoining 10 MHz that public safety 
already has, will give us a full range of 20 MHz of spectrum 
that we will be able to build single devices out of and operate 
in a safer environment for first responders and the community.
    Thank you, sir.
    Mr. Thompson. Thank you.
    Mr. Carrow.
    Mr. Carrow. Yes. APCO International wholeheartedly supports 
the same thing my two colleagues have said. Basically, again, I 
come a little bit biased, because the State I come from being 
small and having some forethought many years ago, was able to 
successfully put in a full State-wide radio system.
    So, we do have mutual aid across all disciplines--fire, 
police, EMS--and including local utilities in the event of a 
major emergency such as the three snow storms we lived through 
last year. They become, at many times, more of a first 
responder than we are. If you do not have electric, and you do 
not have the wherewithal to get the job done, we have to rely 
on them.
    But I would say that that interoperability we have 
experienced also travels across State boundaries. We have 
sister systems over in three different counties in the State of 
Maryland and the city of Philadelphia.
    A lot of people do not realize that we do need 
interoperability with Philadelphia, because during heightened 
levels of homeland security, the Philadelphia police aviation 
unit flies all the way down through the Delaware Bay to what is 
known as the anchorage, where all the tankers and so forth are 
waiting, moored, waiting to come up the coast. We need direct 
communication with them.
    So, we have that. But we also need it on the broadband 
side.
    So, we already have experienced it on the radio side, so I 
will consider myself very, very fortunate to have lived through 
that. But I know where we could get with a National public 
safety broadband network.
    So, yes. We fully support that.
    Mr. Thompson. Mr. Simay.
    Mr. Simay. Along with the other witnesses, LA-RICS fully 
supports D Block for public safety purposes, and eventually the 
20 MHz becoming available.
    Interoperability also provides wide area coverage, which--
and I would also want to emphasize day-to-day operations are 
enhanced. Chasing a suspect across several jurisdictions, 
making a drug raid in the Algodones Valley, to use an L.A. 
County example, and still being able to remain in contact with 
your home dispatcher, or coordinating a response to a wildlife 
fire.
    Of course, we are a target-rich area. The recent events in 
Japan have made us thought of, again, of what if the big one 
hits in Los Angeles.
    The advantage of having a system that is also useful in 
day-to-day operations is, it keeps everybody sharp. You think 
of applications that had not occurred to you before the 
technology.
    Again, with that interoperable mind, you start building 
relationships that are absolutely crucial in a real disaster 
when you are just reacting, things are unexpected, and you 
really need at that time to have the familiarity with the 
system, which day-to-day operations gives you, and the 
relationships that you have built as a result in the mean time.
    Mr. Thompson. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman King. I will now recognize other Members of the 
committee for questions to ask the witnesses. In accordance 
with our rules and practice, I will recognize Members who were 
present at the start of the hearing by seniority. Those coming 
in later will be recognized in the order of arrival.
    The gentleman from Minnesota, Mr. Cravaack, is recognized 
for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you for 
bringing out this very important issue and regarding 
communications.
    As a prior military member, I know how vital communications 
is, working with NATO. I understand how you can have huge 
assets available to you, and if they are unable to communicate 
with each other, those assets remain idle.
    One of the things I am kind of interested in--and, Chief, 
you brought that up--is, since this is a certain band, this may 
also be a target to be squelched, as well, with hard targets, 
like you said, in regards to towers, being able to be jammed, 
things along this area.
    Have you been able to look at that at all and see how we 
can protect these frequencies?
    Yes, sir.
    Sheriff Fitzgerald. Yes, we have been looking at a whole 
range of areas, but the main issue that we look at when we are 
looking at public safety.
    From a commercial standpoint, the commercial infrastructure 
is built for commercial purposes. That is not anywhere near the 
needs for public safety purposes.
    We must have hardened infrastructure that is available and 
ready to withstand winds from hurricanes, from explosions, from 
handheld radio units that can be dropped and still be 
functioning. That is something that is much beyond the 
capability of our commercial providers at this time.
    Mr. Cravaack. Now, that is vital.
    In Minnesota, I just met with law enforcement officers just 
last week. One of their main concerns is, there are black holes 
in Minnesota where we have our assets out there that are 
working out basically single, solo. If something would occur, 
they are unable to go ahead and contact anyone to bring in 
reinforcements.
    So, this is a vital need.
    The only question I would have at this point, Mr. Chairman, 
is how quickly can we start getting this program off the ground 
and running in this direction.
    So, I thank you very much for all of your efforts and what 
you have done for this process.
    I yield back, sir.
    Chairman King. The gentleman yields back.
    The gentlelady from New York is recognized for 5 minutes.
    Ms. Clarke of New York. Let me thank you, Mr. Chairman and 
Mr. Ranking Member.
    As you recall, I am a former New York City Council member. 
I was seated in the New York City Council in the wake of 9/11.
    I also chaired the committee that had oversight for New 
York City--NYPD and EMS. So, I am intimately acquainted with 
the fallout as a result of the 9/11 event and the inability for 
our first responders to communicate.
    A number of the things that we were able to identify was 
the fact that not only is it critical to have that 
interoperability, but its ability to speak to one another is 
critical, if you are dealing with towers, you are dealing with 
subterranean, as we have subway systems. A reliable spectrum is 
just needed.
    We went through all kinds of RFEs to try to find a company 
that could build that infrastructure for us. At that time, it 
was not available.
    So, Mr. Chairman, the ability for us to dedicate this D 
Block is really, truly, and literally a matter of life and 
death. We know this.
    So, my question to the panel really is about the Federal 
role here. Emergency communication requires that the Federal 
Government work with public safety State and local agencies to 
take full advantage of capabilities provided by broadband.
    Would each of you provide, please provide us with your 
insight on how you believe the Federal Government can assist 
with ensuring cybersecurity for the public safety 
communications grid and assist with coordinating Smart Grid 
initiatives, as well?
    You have got all of these initiatives rolled out 
simultaneously. At the same time, we want to make sure that we 
can maximize on your capabilities to have that dedicated band 
to do the work that needs to be done for our Nation.
    So, I look forward to your answers, gentlemen.
    I am talking specifically about our ability to help you 
secure. You know, once we move to that, then those who seek to 
do us harm will see that as a target, and look at any 
vulnerabilities within that spectrum to, you know, foil your 
efforts to keep the public safe.
    So, if you have any ideas or any thinking around that, that 
is what I am trying to get at.
    Sheriff Fitzgerald. Congresswoman, a two-part response. 
First is, the way the Federal Government can help is certainly 
by funding the issue, providing the funding for us to build 
this out and to make it secure.
    The second part of the question, I do not have the 
information on cybersecurity and can get back to you. But I 
will have this researched, and I will get back to you and the 
committee on your answer.
    Chief Parow. Madam Congressman, another thing we have going 
on, we have 20 jurisdictions across this country today, that 
are using our public safety spectrum, which is the 10 MHz that 
abuts the D Block. They are putting in systems--I believe there 
are seven or eight States, counties, and large cities that are 
putting these in.
    They are doing a lot of the test work for us. Quite 
frankly, it is going to help us with our end product to have a 
secure product and a mission-critical product.
    Mr. Carrow. Ma'am, I would just like to add to my two 
colleagues' comments.
    The very first thing that the Federal Government can do to 
help is to pass the legislation. The second thing would be the 
funding. I mean, we all know that.
    I would echo the sheriff's comments that, you know, the 
governance is not set yet, and we do not really have the 
crystal ball laid out here as far as the cybersecurity. But we 
can certainly get back to you with information based on what 
the best practices are today, and what we would see holding 
true to the future.
    Mr. Simay. Yes. We can also send a more complete answer.
    But some initial thoughts are, since it is going to take a 
while to develop this 700 MHz broadband, if you make use of 
multi-mode radios, where you could have interoperability making 
use of different bands, that could allow you to make greater 
use of the networks, the voice networks that are in place.
    But the radios are at the more expensive end, which gets 
you back to funding. But it can leverage some even greater 
expenses on the backbone.
    Fiber optics can play a role in physical security versus 
microwave lengths. They are also less sensitive to weather.
    Dynamic spectrum access and spectrum sharing is promising, 
provided you can solve the emulation problem, which again, is a 
cybersecurity issue. But I have read some of the recent trade 
magazines, like IEEE Communications, that are now actively 
discussing that. So, I am confident there will be a technical 
solution.
    Again, your committee is ideally positioned, because you 
have the vision to see both the cybersecurity angle, as well as 
critical infrastructure, including public safety communication 
and Smart Grid.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman. 
I yield back.
    Chairman King. The gentlelady yields back.
    The gentleman from Texas is recognized for 5 minutes.
    Mr. Green. Thank you very much, Mr. Chairman.
    I thank the witnesses for coming.
    You know, looking back to 9/11 and Hurricane Katrina, they 
both definitely demonstrated that we must ensure our plans 
include worst-case scenarios. The FCC analysis is that, in the 
public safety world, communications networks are typically 
designed to support the worst case. This means that for the 
normal operating environment, there would be significant excess 
capacity, which they argue is inefficiently used by public 
safety.
    Do you agree or disagree with the approach of building out 
public safety communications networks for the rare time when 
the need becomes far much greater than anything that we may 
have encountered, or what we might normally look to to occur?
    We will begin with you, Chief, if you would.
    Chief Parow. I think we always look--when we are putting 
together a system, we look for excess capacity. We also look 
for some level of redundancy. So, we do not believe that the 
excess capacity would go to waste.
    Also, we have to plan for the future. You know, I look back 
when I bought my first computer, an Apple II, it had no hard 
drive on it at all. The second computer I had had 64 megahertz 
(sic). I said, I will never use that amount of storage.
    Look at today. I just bought a new computer with one 
terabyte.
    So, we think the capacity--we do not believe that it is 
excess capacity. We believe it is needed capacity, not only to 
handle what we have today, but into the future, and also to 
offer some course of redundancy.
    Sheriff Fitzgerald. Again, echoing the chief's comments, 
first of all, in this type of system, we must have a hardened 
system that is complete with back-up generators, and even in 
the terrestrial areas where we do not have coverage satellite 
back-up, so when towers are knocked out, for whatever the 
reason, that we have a seamless--maintain seamless 
communication and interoperability.
    Most of the comments that you hear from first responders 
are, we really do not get the attention until there is an 
emergency. Then they want the best cops, the best trained with 
the best equipment--same for the best firemen, same for the 
best emergency medical service providers.
    Where are they? Why aren't they trained, and why aren't 
they equipped? This is all part of preparedness and what we 
must have.
    Whether you have on the larger cities, like New York, the 
Bay Area in California, they are going to have a much stronger 
need for the 20 MHz, perhaps on a day-to-day basis.
    Where I am at, in rural Iowa, we are going to have less of 
a need for putting out that capacity. But when we do have an 
emergency, whether it is a tornado or whether it is some other 
type of major incident, we must have that instantly available 
to us.
    Being promised that we are going to be given priority is 
something that is not acceptable to the first responders 
throughout America.
    Mr. Green. Thank you very much.
    Mr. Carrow. I would just like to add to that, that I think 
we have proven here and my comments earlier, that, certainly, 
New York City, I would agree, would have a much greater need on 
a more consistent basis for the full spectrum than I probably 
would in the State of Delaware.
    However, we do have planned emergencies, and we have 
unplanned emergencies. In the C-5 crash, it is certainly 
something that we all trained for. We thought that was going to 
be our most horrific event that we could ever experience. Thank 
goodness, there was no loss of life out of that crew or 
passengers.
    However, I think I have proven here that, in that instance, 
had we had the National public safety broadband network, we 
would not have missed a beat. We would have had the priority 
and the spectrum that we needed to get the job done instead of 
having to pick up the phone and call a 9-1-1 center to find out 
who was on the scene that we just saw 30 seconds ago. Where are 
they now? That was mission-critical to us.
    But as was already mentioned, the excess spectrum will 
certainly not go unused, because it is not really excess. It is 
there for the true big emergency, as you have suggested in your 
opening comment.
    Mr. Green. Mr. Simay.
    Mr. Simay. Yes, I ask myself, what if we have a severe 
earthquake off the coast of California and a significant 
tsunami event? Would there be enough redundancy in the higher 
elevation areas of the county to mount a coordinated response?
    The potential loss from a natural disaster or a man-made 
event, I think far would exceed the investment that we are 
called on to make. So, following the highest SAFECOM standards 
that you have established, SAFECOM five, is the best way to go.
    Plus, even on day-to-day operations, even on lesser events 
like wildfires, you have on-going advantages on a day-to-day 
basis that will repay it. And as mentioned earlier, our 
imagination will think of more uses, and what seems to be 
excess capacity today will probably be inadequate in 5 or 10 
years.
    Mr. Green. Thank you very much.
    I agree with the Ranking Member that there certainly 
appears to be a tremendous amount of unified thinking in the 
safety community. So, thank you very much.
    Thank you, Mr. Chairman.
    Chairman King. The gentleman's time has expired.
    The gentleman from Pennsylvania, Mr. Marino, is recognized 
for 5 minutes.
    Mr. Marino. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I have three questions that I will combine, and each one of 
you can take a moment or two to respond on it. Just a little 
background, I was a prosecutor in Pennsylvania in a community, 
a rural community, where under certain circumstances, it was 
difficult to communicate among the 37 different law enforcement 
agencies within my county.
    Examples of perhaps drug raids that involved not only 
Federal, State, but local individuals, we ended up carrying 
three, sometimes four different radios, and not knowing which 
one in an emergency situation to grab or respond to.
    If you would, please, give me a worst-situation scenario in 
a rural area. There was a report that I received from one of my 
counties in the 10th Congressional District in Pennsylvania, 
from Susquehanna County. They say it is a draft, but it was a 
rather, a very complex and complete report about the region and 
how such a situation, a disaster, man-made or otherwise, would 
affect them.
    So, could you give me a worst-case scenario in a rural 
area? If you did receive the funding that is requested, or is 
suggested that is needed to accomplish our mission here--and I 
do say ``ours,'' as a law enforcement person myself--would it 
be complete?
    Would we have, or would rural areas such as Susquehanna 
County in my area, have if not communications, but monitoring 
capabilities Nation-wide, if necessary?
    Do you understand my questions? Okay, please. You want to 
start at this end, please?
    You shook your head first, so----
    [Laughter.]
    Mr. Simay. Yes. I think one of the worst-case scenarios for 
a rural area would be those requiring mass evacuation. If it is 
a target-rich area--and it can be, if there is a nearby 
military base, for example. You could have a dirty bomb 
incident.
    But getting aside from that, you could have a derailment of 
a freight train that releases a hazardous material, maybe 
chlorine gas that dissipates over a wide area. So, that would 
be an instance where you might have to do a very swift, mass 
evacuation, rescue where it is very difficult for first 
responders to enter the area safely, because of the hazard.
    Mr. Marino. Okay. Perhaps someone else could respond then 
to, if what we are seeking would accomplish, totally, or only 
partially accomplish our goal of having communication--complete 
communication--no matter how rural the area is.
    Sheriff Fitzgerald. If I can give you a scenario that 
happened in Story County, Iowa, Ames, and Iowa State University 
is in my county.
    A couple of years ago, we had a convenience store clerk in 
Ames was murdered by her husband, a domestic violence case. 
They are from the Chicago area. So, he started going east back 
to Chicago through the rural parts of the county. A small-town 
officer engages the individual, and they exchange gunfire, and 
then the high-speed chase begins.
    Within the county, as I mentioned earlier, we have 800, so 
the local police and the sheriff's office, we have that 
seamless communication. But we were heading into another 
county, Marshall County.
    We had the State patrol responding for assistance, and we 
also had a life flight helicopter coming in. We already had one 
death, and there was already shots fired.
    Other than that police officer and the deputy sheriff in 
Story County communicating, the only way they could communicate 
is by keep juggling between the radios in the car.
    As they crossed the Marshall County line and entered a 
smaller community in Marshall County, the officer there 
deployed stop sticks. The suspect went over that. His vehicle 
tires were deflated. He went in the ditch.
    So, we now have an armed individual in a vehicle in the 
ditch. My deputies get there. There was Marshall County 
deputies.
    They are literally standing on the other side of the road 
from each other, outside of their cars now, and they cannot 
communicate.
    The State patrol, there is no communication with them, 
where they are, where they are coming in at. The individual 
finally died of a gunshot wound.
    But, I mean, if we had the communication ability so we 
could coordinate our response, when we are in the heat of the 
moment, so to speak, it not only enhances the ability to save 
the responder's life, but also the community that we are trying 
to protect.
    Mr. Marino. With this D Block system that we are talking 
about--I have 10 seconds, if you could answer, please, 
whoever--is that going to accomplish our goal? Are we going to 
have communications, not only in a limited rural area, but 
across the State and across the country?
    Chief Parow. Yes. The system we envision and we have 
planned does cover all the areas. We have given special 
attention to the rural areas, because those are the areas today 
that are really suffering, that do not have the communications.
    Mr. Carrow. I would just like to mention a perfect example 
of where it would have worked and worked very well was the 
Obama whistle-stop tour that came through the northern edge of 
my State to pick up the then-Vice President-elect and his 
family.
    That was a train ride that transversed several States into 
the district, multiple counties. In our State alone, it had 
multiple coordination points amongst Federal partners, State, 
local, and county officials, and all disciplines--fire, police, 
and EMS.
    It worked very well for radio, because it was very well-
planned-out. But just imagine how well that would have worked 
if you had a National broadband network in effect, where you 
would have communications that entire length on data, all the 
way to the District of Columbia, and it is on a secure network.
    You certainly did not have that during that day.
    Mr. Marino. Thank you, sir.
    Mr. Chairman, I have gone over my time, but thank you for 
that extra minute, and I yield back.
    Chairman King. I thank the gentleman for his questions.
    Now, the gentlelady from Texas, Ms. Jackson Lee, is 
recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I am 
enthusiastic about the legislation that you have introduced.
    I am baffled--and to the witnesses, I am in another hearing 
on the Patriot Act, so I ask your indulgence, Mr. Chairman, and 
to the witnesses.
    But it is interesting that we can be in one committee 
talking about the Patriot Act, and another committee talking 
about not having spectrum. We are all talking about security.
    So, I would like to ask--and forgive me if you have 
answered it, but I think you will always add something new--
each witness to tell me how devastating it would be not to have 
this spectrum utilization. Forgive my voice.
    Let us start with you, Chief.
    Chief Parow. I mean, we have been--since I have been in the 
fire service, would have been the last 30, almost 34 years--we 
have been fighting the ability to be able to speak to each 
other.
    I can just give you maybe just one example, that when I was 
in a fire in a hotel. I could actually look out the window--and 
this is similar to what happened, not at the size and scope, 
but on 9/11--I could see the fire engine out in the parking 
lot, and I was standing in the window and could not communicate 
with that fire engine. That is how close we were.
    Since then, we have been able to change our radio frequency 
to a higher frequency, and we can now--that has been overcome.
    But the problem is, I cannot speak to the police officers 
standing out in the parking lot.
    Ms. Jackson Lee. We knew that that was a major concern in 
9/11, and it is now 2011. It looks as if a country of this 
greatness could fix it.
    Chief Parow. That is correct.
    Ms. Jackson Lee. Thank you.
    Chief Parow. That is correct. That is exactly what this 
will accomplish.
    Ms. Jackson Lee. Well, let me just add, as you keep going 
down, gentlemen, we will need your advocacy for people to 
understand that we are not sacrificing deficit reduction, which 
is one of the issues that the FCC was instructed to use 
spectrum for, that that priority certainly has to take many, 
many back steps to the securing of this Nation.
    Sheriff.
    Sheriff Fitzgerald. Thank you. First of all, as I mentioned 
earlier, kids today have better communication than any of the 
first responders do with cell phones being able to send 
pictures, video. We do not have that in the first responder 
community.
    I have been in law enforcement 34 years. I remember when I 
first started as a police officer in a city, my first day on 
the job I was handed a radio. You clipped the lapel mike onto 
your epaulet on your shoulder, and you went out and did the 
job.
    Today, my deputies have their radio on the side, clip their 
lapel mike to their shoulder, and they go out and do their job. 
The communication virtually is the same as it was 34 years ago.
    We are now facing an age where we have tremendously 
improving, rapidly changing technology that gives the 
capabilities for all first responders to be able to respond in 
such a way that it is going to greatly enhance their safety, 
and, therefore, allow us to better protect the people that we 
serve.
    If you could imagine--just quickly--in the Columbine 
shooting incident, if you would have had the technology there 
for streaming video in the school, the cameras in the school, 
not to mention the phone cameras that the kids have, could have 
streamed that video to the dispatch center. The dispatch center 
would then stream that video to the responding officers.
    The responding officers could see where in the school this 
was happening and what the bad guys look like. They would be 
able to go in and engage that much quicker.
    That is just a brief sample of the type of communication 
interoperability that the D Block will give us.
    Ms. Jackson Lee. Well, one thing--and I just, Mr. Carrow, 
we certainly should not have al-Qaeda in the mountains of 
Afghanistan and Pakistan having better communication than we 
might have.
    Add to your response, Mr. Carrow, as to whether or not this 
would be devastating. Would you add to your response whether or 
not you believe that commercial carriers are willing to allow 
public safety to preempt their rights, if you would?
    Mr. Carrow. Basically, it was mentioned in a meeting in 
Herndon, Virginia, back in September, by a commercial carrier, 
that they are certainly not willing to do that. That is 
something that we direly need.
    To answer your first question to us as a panel, plain and 
simple, it is a matter of life and death, of citizenry and also 
first responders. That is about as clear as you can make it.
    I appreciate your comments coming in here about the Patriot 
Act, and so forth. You know, we feel the same way, and we 
certainly have been advocating this for well over 2 years now 
in many different battles, many different fronts.
    But, you know, it is something that we can reach out, we 
can grasp it. We know it is the right thing to do. How do we 
get there?
    Well, now we know how to get there. It is pass this 
legislation, which would not only give us the wherewithal, but 
give us the funding to make a fully secure National network.
    Chairman King. Time of the gentlelady has expired.
    The gentleman from Michigan, Mr. Walberg, is recognized for 
5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    Thank you to the panel here for being here. Thank you for 
your service to our country.
    There is a lot of talk about a multi-band radio. Will 
multi-band radios operate on all the spectrum band public 
safety is using, or just a couple?
    I toss that out to you.
    Chief Parow. I think, with the Nation-wide broadband 
spectrum we have, you know, the final product will be one 
radio, one band.
    Today, we are using multi-bands, and that is where we seem 
to be running into the problem. We actually have six bands that 
we are currently using, and one radio cannot necessarily talk 
to a different band.
    Mr. Walberg. But are these multi-band radios that you are 
talking of, or just multi-radios?
    Sheriff Fitzgerald. These are multiple bands.
    One of the initiatives going on now is called the P-25. 
That is basically talking about digital radios in the 700 and 
the 800 spectrum. That will give the ability for one radio to 
communicate across those bands.
    The issue is how we are going to tie the link in to the 
lower channel spectrum bands, to have that communication still 
within one radio.
    The prototype that I had seen--I sat on a Homeland Security 
Committee, Science and Technology, and they had developed a 
prototype radio they are sampling now. But that is a $7,000 to 
$8,000 radio.
    My radios, for me to equip each one of my officers, not to 
mention a bigger department, how much that would cost, the cost 
is just way too much at this point.
    Mr. Walberg. So these are prototypes right now, if I could 
just----
    Sheriff Fitzgerald. Yes, these are prototypes right now.
    Mr. Walberg. Okay. So, not in production. You are not 
purchasing them. You are saying $7,000 to $8,000 per radio.
    Sheriff Fitzgerald. That is the prototype that----
    Mr. Walberg. That is a prototype.
    Sheriff Fitzgerald [continuing]. That I have seen from 
Homeland Security. Right now, it is still in the working stages 
of P-25, which is going to provide basic infrastructure to 
build communications on in the future for multi-band radios.
    Mr. Walberg. Okay. Let me ask another question here, and 
any who care to answer.
    If the D Block allocation to public safety moves forward, 
do you believe that there will be excess capacity and network 
for other users?
    Sheriff Fitzgerald. Again, that depends. First of all, you 
have the larger cities, you know, that we talked about, New 
York, Los Angeles. They may have the need for day-to-day usage 
of 20 MHz of spectrum for the job that they have to do.
    But as you look throughout the rest of America, like where 
I am from in Iowa, we will certainly have under-used spectrum. 
The issue will be, when we do have a crisis and emergency, such 
as the tornado that I described earlier, we will need all that 
spectrum at that time.
    But in the mean time, we will still be able to lease to the 
commercial providers that spectrum, which they will be able to 
use on the commercial level, and again, help support financing 
to continue with the Nation-wide interoperability working with 
the D Block.
    Mr. Walberg. Leasing is a viable option, even for short 
periods of time?
    Sheriff Fitzgerald. Yes.
    Mr. Walberg. Certainly with no security that they would 
continue on.
    Sheriff Fitzgerald. Well, I would certainly believe that 
that would be an option.
    In the rural areas, like I said, the times that we would 
absolutely need the 20 MHz of spectrum would be much less than 
what the larger cities would be needing. So, we would be able 
to lease that out.
    The question comes back, who is going to be in control? 
When you have an emergency, and you need that spectrum, that is 
not the time to start looking to see if you have priority.
    If a system crashes because there are so many users trying 
to get on the frequency at that time, how is the tower going to 
be able to recognize my device, that I am a priority user and I 
need immediate access? It is not going to be able to 
communicate with the tower any more than anyone else's service 
is.
    So, if we have dedicated spectrum for public safety, we 
will control that. In a time of a true emergency and a true 
crisis, we will be able to take that spectrum and use it, where 
if it is under a commercial provider, then we will have to gain 
priority or wait our turn.
    Mr. Walberg. Okay. Thank you.
    Let me just press on one more question.
    Mr. Simay, you make note on how you hope that a system-of-
systems, ``approach to emergency communications is adopted 
Federally.'' Could you expand very briefly on that statement?
    Mr. Simay. Yes, just very briefly, as you move ultimately 
towards the broadband system, you can--voice interoperability 
remains a very critical component for safety.
    One way to leverage the assets we have now is to consider a 
system-of-systems approach--recognizing that a system might 
well be county-wide--that does make use of the emerging multi-
band radio technology where you could have true 
interoperability among several bands, versus where you have 
just separated dual bands, where you are only listening to one 
at a time.
    But you are talking about trading off expensive radios, at 
least now, with perhaps expensive--or waiting longer for your 
700 MHz infrastructure throughout the Nation.
    Mr. Walberg. Okay. Thank you.
    Thank you.
    Chairman King. Thank you, Mr. Walberg.
    Before I recognize the gentleman from Michigan, I would 
like to tell the panel, I will have to leave the hearing right 
now. Mr. Walberg has agreed to chair the balance of the 
hearing.
    But I would like to thank each of the four witnesses for 
your testimony today.
    Like the Ranking Member, I was struck by the fact that with 
all of your years of experience as first responders, you all 
strongly support this legislation. I think that level of 
unanimity is really vital, and it is going to help us 
tremendously as we go forward to make our case. I would just 
thank you for your testimony.
    We really tell you that your work is not done. If you could 
stay with us throughout the balance of this fight, it would be 
extremely, extremely helpful to get this legislation through.
    With that I thank you.
    I recognize my friend from Michigan, Mr. Clarke, for 5 
minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Sheriff Fitzgerald, Chief Parow, Sheriff Fitzgerald, I am 
glad you outlined how expensive it is to actually upgrade our 
systems, especially to make sure that we have voice and data 
interoperability.
    I represent metro Detroit. Our first responders really do 
not have the resources right now to fully be prepared for any 
type of emergency, especially because the State and local 
funding has dropped so much.
    What do either one of you recommend is a good way to 
address the build-out costs for these systems? Maybe some 
examples of what you have done yourselves in your own 
departments and what you have heard others have done, or maybe 
what you would propose could be done. Ratchet up. Fund these 
systems in light of our tough fiscal times, where our State and 
local funding agencies just do not have the resources.
    Sheriff Fitzgerald. Well, of course, one of the first 
things that any agency such as myself, such as my agency does 
is, we first search and see what Federal grants and programs 
are out there that are available. Excuse me.
    In Story County, some years ago, we went to the 800 system. 
Now, as we are talking about the D Block and the build-out for 
communication Nation-wide, coast-to-coast, and border-to-
border, we are talking about building the infrastructure, the 
backbone.
    It is not going to give the technology equipment to every 
agency in order to buy the radios and everything that they will 
need. But the infrastructure will be there, such as it is right 
now.
    In my agency, I have still got to purchase the radios. I 
have still got to purchase what communication devices that we 
have for our personnel. But the broadband plan will be able to 
allow us to plug into that system.
    So now, where we only have voice communication capabilities 
on various bands in my county, by plugging into a Nation-wide 
system, we will now be able to have voice, data, streaming 
video. We will be able to send blueprints. I mean, and this 
will be to the laptops in the squad cars, in the fire trucks, 
and in the ambulances.
    Mr. Clarke of Michigan. Thank you.
    This is a separate issue.
    Mr. Carrow, I know your organization is international. You 
have a lot of Canadian affiliates.
    The border that I represent, the Detroit River, it is 
patrolled by the Coast Guard. So, if an emergency arises, we 
have got to coordinate with the Canadian authorities on how to 
best address these threats.
    Can you speak on the differences between the U.S. system 
and Canada's communications systems, and how we can improve 
interoperability between those two countries' systems?
    Mr. Carrow. Well, what I would say is, what I know to be 
true and unfolding in Canada as we speak, are the news reports 
and what I hear from my colleagues at APCO Canada, is they are 
kind of following what we are doing in the United States very 
closely. They would like to follow that in lock step with the 
exact same 700 MHz spectrum.
    Also had a report come out looking for the same thing that 
we have reported in the United States, that 10 MHz is just not 
enough, looking for a full 20 to run a network for first 
responders, emergency responders.
    So, with that being said, if that does unfold, then you 
would have interoperability, not only in our entire Nation, but 
across the border for data. Because again, we will reiterate 
that, that this is designed to start out as a data network, 
with years down the road when it matures, to become a mission-
critical voice network, as well.
    Mr. Clarke of Michigan. Thank you, Mr. Carrow. Thank you, 
gentlemen.
    Mr. Chairman, I yield back.
    Mr. Walberg [presiding]. Thank you.
    Turn to the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    First of all, I want to thank Mr. Simay for coming. I 
apologize for not being here to properly introduce you earlier. 
I had a mandatory meeting that I had to attend to.
    However, according to my staff, I wanted to give you an 
opportunity to expand a little bit more on the LA-RICS system, 
because as staff is still here present, unfortunately, the 
official Chairman of the main committee is not here.
    I think it would be very helpful, what we have done in the 
LA-RICS system, if you could describe how that governance 
structure could be extrapolated, for example, on a Nation-wide 
basis. So, I wanted to give you a few moments to be able to do 
that.
    Mr. Simay. Congresswoman Richardson, I would be happy to do 
that, and thanks again for inviting me.
    Around 2005, it had been evident long since 9/11 that 
interoperability was needed. Of course, Sheriff Baca had 
introduced the LARTCS system years before, which provided a 
degree of interoperability, particularly when the systems were 
less digitized.
    By 2005, it was apparent that a county-wide approach was 
needed. You have a county with 88 different agencies, with 
deserts, mountains, shorelines, even an island population of 10 
million. So, it was a daunting task, equivalent, perhaps, to 
achieving voice interoperability for a small country in terms 
of population and geographic diversity.
    There had been an earlier regional interoperability, 
subregional within Los Angeles County known as ICIS. It had 
joint powers authority. It seemed evident that a JPA, or a 
joint powers authority, with the power to issue bonds and to do 
financing, as well as to coordinate, would be needed.
    So, after--there were initial consulting studies from RCC 
Consultants that showed that there was a great deal to be 
gained from uniformity of standards, from the sharing of 
facilities that might otherwise be duplicated if pursued on an 
individual basis. So was initially born LA-RISC that then 
became LA-RICS by the time it became a full joint powers 
authority.
    Just to give you an idea of the composition of the board, 
it is quite comprehensive. It goes, there is county 
representation. There is also representation of the Los Angeles 
area, fire chiefs association, the police chiefs association, 
the contract cities association--contract city being cities 
that rely on the county for police and fire, and a number of 
cities rely on the county for one or the other--and then, a 
number of at-large stakeholders for independent cities, fully 
independent or partially independent.
    So, you have all these constituencies now that meet monthly 
as a 17-member board. That membership is echoed in the various 
committees. There is an operations committee. We very much have 
an operational focus for LA-RICS. They meet the same day as the 
technical committee, and there is a lot of crosstalk and 
pollination between those two committees.
    Recently, the finance committee, which I chair, has had a 
joint meeting with operations and technical, because now we are 
talking, does it make sense to phase certain capital 
improvements and certain LA-RICS activities, how best to meet 
the daunting challenge of financing the gap between the grant 
support that we have given them, for which we thank Homeland 
Security.
    But the estimated cost, which is still--which our nominal 
figure is $600 million. So, we have a several hundred million 
dollar gap that we are wrestling with. As was mentioned 
earlier, local and State and municipal funding is particularly 
tough these times.
    But what we have now is a formal structure that allows us 
to debate many issues, the proper use of spectrum, what our 
standard operating procedures are and how to harmonize among 
the different agencies, considering the scenarios.
    Perhaps one of our best achievements was securing a BTOP 
grant. Initially, we were going to have a very modest data 
system that would just allow us to do some warrant checks and 
some license checks. Now we are going to be able to help 
pioneer the very system that was talked about earlier, the 
streaming video and much more graphics applications.
    Ms. Richardson. Thank you, sir.
    So, what I would like to do just for the record is to ask 
that staff would consider the structure that has already been 
put in place, and for the record to note that the county he is 
referencing, L.A. County, is the largest county in the United 
States.
    So, rather than us reinventing the wheel and having various 
departments to do pilots and to figure out what systems can 
work, we surely should consider one that is already in place in 
the largest coordinated agency in the country.
    Thank you very much.
    Mr. Walberg. I thank the gentlelady. I am sure that will be 
duly noted.
    Well, I want to thank the witnesses for your time, your 
valuable testimony, your experience that you bring to the 
table.
    I certainly want to thank Chairman King for holding 
hearings like this where we are definitely talking about those 
things that matter, to the security, to the liberty, the on-
going future of this great country that really needs to develop 
a seamless approach that assures Americans of their civil 
liberties being protected, but also that they are protected.
    The Members of the committee may have some additional 
questions. I thank the Members who have questioned. But any 
additional questions for witnesses, we hope that we can expect 
you to respond to these in writing. The hearing record will be 
held open for 10 days.
    So, without objection, the committee stands adjourned.
    [Whereupon, at 11:38 a.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Peter T. King for Chief John E. ``Jack'' Parow
    Question 1a. Would your association accept the preemption or 
priority use offers of the vendors regarding the use of the D Block?
    Answer. No. Because the vendors have told us that they will not 
provide ruthless preemption. In public safety, an emergency 
transmission must go instantaneously--not put into a queue. The 
carriers are for-profit corporations and are rightfully concerned with 
customer service.
    Question 1b. What are your specific recommendations preemption 
authority on the D Block?
    Answer. Priority access in LTE has several levels and at the moment 
pre-emption is not one of them. Priority access slows down other users 
in favor of those who have priority. However, in order to get priority, 
a field unit must be able to communicate with the network in order to 
request priority access. This is the big fallacy in priority access. 
Each mobile device requesting priority access must have access to the 
network via what is called the signaling channel. A unit transmits a 
request which is then relayed to the network. However, in many cases 
when the networks are overloaded with traffic, the signaling channel is 
also overloaded and it is very possible that the request for priority 
access will not even be heard by the network, let alone acted upon. 
Even with pre-emption, that is, ``kicking other users off the 
network,'' you still need to be able to get the request through to the 
network and this is where priority access fails. Thus the only viable 
solution is for public safety to have a dedicated broadband network 
which it controls and sets priorities among and between public safety 
users.
    Question 2. What is the cost impact of building two separate 
network systems as compared to building out on a continuous 20 MHz 
system?
    Answer. This is a leading question. The answer is that it is less 
expensive to build the system right the first time using 20 MHz. It 
costs about the same to build a 10 MHz LTE network as it does a 20 MHz 
network. But if we don't get the contiguous D Block, which is in the 
same band plan as the current public safety license, then new spectrum 
will be allocated to public safety in a different band. This will 
significantly add to the cost of devices since we will now need dual 
band radios. Further, the characteristics of a different spectrum slice 
could well be problematic for public safety first responders.
    Question 3. Some groups strongly advocate for requiring 
interoperability across all 700 MHz broadband spectrum. They argue that 
in terms of public safety, this will make it technically feasible for 
public safety users to roam onto commercial networks, provide redundant 
systems to provide additional capacity or backup in the event of a 
disaster, and greatly increase the scope and economic scale for 
devices, therefore reducing the cost to public safety users. Do you 
agree with this statement?
    Answer. No. First, the 12 MHz of narrowband voice in the upper 700 
MHz band for public safety cannot be mixed with broadband. Unacceptable 
interference would occur. Second, public safety roaming onto commercial 
networks was the vision of the FCC's National Broadband Plan which has 
since been superseded by White House support for allocating the D Band 
directly to public safety. Roaming is not a good option for public 
safety since individual roaming agreements will have to be executed--
and that is very limiting--and priority once public safety gets on a 
commercial network is not workable. As for devices, public safety will 
maximize to the extent possible open standards to keep costs down.
    Question 4. Chief Parow, State and local governments, first 
responders, and emergency management officials frequently have mutual 
aid agreements in place to enable assistance from surrounding 
jurisdictions during an emergency. You note in your testimony that 
public safety licensees may only operate in their area so as not to 
interfere in the communications of another jurisdiction on the same 
frequency.
    Answer. This is true. Mutual aid agreements are governance models 
and have to be negotiated. Multiple issues are present. One of the 
issues would be consideration of the frequencies used in the mutual aid 
area to ensure there would not be interference. Ensuring that public 
safety communications systems don't interfere with one another is a 
function of frequency coordination as part of the FCC licensing 
process. The same care must be exercised when mutual aid is being 
planned.
    Question 5. Chief Parow, you note in your written statement that 
the D Block structure, as envisioned by H.R. 607, is the only 
configuration that will ensure public safety's ability to build this 
interoperable broadband network and that this network must be under 
public safety control.
    Answer. True on both counts. The D Block is immediately adjacent to 
the currently licensed Nation-wide public safety spectrum. And, it is 
in the same band class. This will avoid the need for dual band radios 
which add to the cost of devices and can present operating challenges. 
And, yes, public safety must have control of the network for precisely 
the reasons I set forward in my testimony. We cannot have commercial 
providers with a profit motive deciding what is and what is not a 
public safety priority. They are simply not equipped to make those 
decisions.
    Question 6. 9/11 and Hurricane Katrina definitely demonstrated that 
we must ensure our plans include worst-case scenarios. The FCC analysis 
is that in the public safety world communications networks are 
typically designed to support the worst case. This means that for the 
normal operating environment there will be significant excess capacity 
which, they argue is inefficiently used by public safety. Do you 
disagree with the approach of building our public safety communications 
networks for the rare time it needs to have a much bigger capacity than 
normal?
    Answer. Yes. There are those who say our current LMR voice systems 
are inefficient. There is not always voice traffic on the frequency. 
Commercial frequencies carry programming the entire time they are on 
the air. Not so public safety. Public safety frequencies are used 
primarily when there is emergency traffic or some other operational 
reasons. It is much like our fire engines in the firehouse. They do not 
run up and down the road with red lights and sirens all the time. 
Mostly, they are in the fire house staffed and ready to respond to an 
emergency. The public safety model because of its mission is completely 
different from for-profit commercial.
   Questions From Honorable Laura Richardson for William ``Bill'' D. 
                                 Carrow
    Question 1. Under President Obama's recently announced Wireless 
Innovation and Infrastructure Initiative, the administration proposed a 
one-time investment of $5 billion and reform of the ``Universal Service 
Fund'' to provide at least 80% of Americans with access to 4G high-
speed wireless, including most rural communities. The administration 
believes that by extending a high-speed broadband network to rural 
communities, it will also be able to increase interoperability among 
rural public safety agencies. What are some of the challenges that 
public safety agencies in rural communities face today without access 
to a wireless broadband network?
    Answer. In an era where police, fire, and EMS officials in areas 
all across the country are dealing with serious budget shortfalls, and 
subsequent layoffs, the inability to wirelessly transmit data in the 
form of an incident report back to central command is hampering how the 
remaining public safety officials efficiently manage their tasks.
    Take for example, two police officers in two similar rural 
jurisdictions. Officer ``A'' does not have the ability to wirelessly 
transmit biometric information (i.e., facial recognition) relating to a 
traffic stop back to his central command post. With no knowledge of the 
suspect he just pulled over, the officer approaches the vehicle 
operator and engages the driver in a dialogue. The officer issues a 
ticket for excessive speeding, his fourth ticket of the day. The driver 
provides the officer with false information including a picture ID and 
insurance card. When the officer radios into dispatch the false 
information no warrants are found. He sends the speeder along his way, 
and then turns around to drive the 40 miles back to his central command 
to fill out the paperwork for the 4 tickets he issued that afternoon. 
Instead of being able to fill out his report on the road and send it 
wirelessly back to his dispatch, Officer A is forced to drive back to 
his station, leaving one less officer on the road. Meanwhile, the 
officer later finds out, through a more comprehensive and exhaustive 
hands-on query once back at dispatch that the driver who was issued the 
officer's last ticket had two outstanding warrants, including one for 
felony gun possession. Had the officer known this fact, he would have 
apprehended the suspect, and would have found a semi-automatic weapon 
lodged under the front seat of the vehicle. Later that day, the driver 
commits a serious crime using the illegally-owned weapon.
    Now we turn to Officer ``B'' who, under the same fact pattern 
provided above has access to a secure wireless broadband network. 
During a routine traffic stop, the officer is able to take a picture of 
the driver and transmit the picture along with the driver's license 
number and license plate of a violator she's pulled over back to the 
station on a public safety network. Seconds after the information is 
submitted, she receives a real-time message on her broadband radio 
informing her that the individual identified by the license number does 
not match the picture of that was transmitted and the driver has two 
outstanding warrants, one relating to a felony weapon possession. Not 
only does the officer now know that she must bring the driver in, but 
that she must use extreme caution when handling the situation. She is 
alone with the driver in a rural part of the State without any back up 
and the nearest officer is miles away. She flips the switch to the 
video camera in her car that instantly transmits to dispatch the video 
of the pending arrest. Dispatch is able see the situation as it unfolds 
and sends the necessary support to assist the officer in the 
apprehension of the criminal. The arriving units, which could be from a 
neighboring jurisdiction, are able to see the video because they are on 
the same interoperable broadband network, and know instantly how to 
control the situation and assist the officer as they arrive on the 
scene. This information not only may save her life, but she was able to 
bring in a dangerous individual off the street--all without having to 
run back to the main station to fill out a report.
    In just this one example of how broadband in rural communities can 
benefit public safety agencies. It keeps public safety officers on the 
street rather than commuting to and from the station, it catches 
offenders who would otherwise go free, and, most importantly, it keeps 
our Nation's first responders safe from possible harm.
    Question 2. At the time of the attempted auction of the D Block, 
the cost of building the mobile broadband network under the public/
private partnership proposed by the FCC was estimated at from $18 
billion to as much as $40 billion. If the D Block is reallocated to 
public safety, what do you estimate the total costs to be, including 
user equipment such as radios and other hand-held devices?
    Answer. We agree with the FCC's more recent statement found in the 
March 2010 National Broadband Plan that states the build-out of a 10 
MHz (or 55) broadband network will cost approximately $6 to $10 
billion over the next 5 years. If the D Block is allocated to public 
safety, thereby creating a contiguous 20 MHz swath of spectrum, the 
additional effort and materials required to build out a 1010 network 
would cost little to no more than the 55 network. It would only take a 
software upgrade to public safety's towers to transform a 55 network 
to a 1010 network; no additional hardware would be needed.
    With that information in mind, we believe that the numbers 
discussed in H.R. 607, S. 28, S. 1040 and the bipartisan discussion 
draft recently circulated by Senators Rockefeller and Hutchison that 
will eventually become S. 911 would all adequately help to cover the 
cost of the build-out and sustainment of the network. As for user 
equipment, including hand-held devices, we believe that the broadband 
market will allow for greater competition, a larger user base, open 
standards development and significant new applications that will drive 
down hardware costs and software application costs while realizing cost 
savings through more remote productivity, efficiency, and effectiveness 
of field workers in public safety, as well as those secondary users of 
the network. Grants, State, and local budgets, public and private 
partnerships, and secondary user fees will help to fund on-going 
operational costs, and at some point, migration from LMR to broadband 
will free up additional dollars toward broadband.
    It should be noted that with a 10 MHz network, the ability to 
leverage excess capacity with second and situational responders, 
including utilities and critical infrastructure companies becomes 
minimal to nonexistent. This is a critical part of the network 
equation. We not only want to be good stewards of the spectrum we use, 
but we want to be self-sustaining, and not come back to Congress 
seeking additional funding through the transition in future years. With 
20 MHz of spectrum, there are a number of partnerships that become more 
viable, and that we believe we can leverage not only with the initial 
build-out, but during the life-span of the LTE data network. These 
partnerships will help create a constant and substantive funding stream 
to help continue the build-out as well as maintenance of the network. 
With a 10 MHz system, public safety will be the only users on the 
network, and may likely have to look for additional funding to help 
maintain and operate the network in the future.
    It should be noted that the cost of the radios and hand-held 
equipment is expected to be far less than the cost of current land 
mobile radio equipment. With open-source standards that leverage 
commercial LTE technologies, we believe the cost of radios and hand-
held equipment would be between $600 to $1,000 dollars, where as today, 
public safety agencies are paying on the average of $3,000 to $5,000 
for their mobile radios and considerably more for their transmitters 
and receivers. Once fully implemented, the public safety broadband 
network would provide for considerable savings resulting from lower-
cost radios and new competition. The question should not be how much 
user equipment such as radios and other hand-held devices will cost but 
instead how much will local and State public safety agencies save as 
they transition to broadband.
  Questions From Chairman Peter T. King for Sheriff Paul H. Fitzgerald
    Question 1. On the topic of logistical support, Mr. Simay notes 
that most police and fire departments are too small to contain their 
own logistical support and they depend on public works departments and 
the Red Cross to assist them during a time of need. Sheriff Fitzgerald 
and Chief Parow, based on your experiences, should we increase the role 
of utilities and non-Governmental organizations in public safety 
communications?
    Answer. Utilities and non-Governmental organizations play an 
important role in public safety communications. However, public safety 
must retain control of this network and be in the position to authorize 
and or assign who and when they are given access to the network in 
times of crisis.
    Question 2. Would public safety be open to the idea of forming 
public-private partnerships with commercial carriers?
    Answer. The public safety community strongly supports the idea of 
forming public-private partnerships with commercial carriers. It will 
be critical for the success and build-out of the Nation-wide public 
safety interoperable mobile broadband network that these partnerships 
exist. The partnerships ensure that public safety is able to build-out 
off of existing infrastructure to not only help reduce costs but speed 
up implementation. In particular, partnerships with smaller carriers in 
rural areas will be key to ensuring build-out in rural areas and reduce 
the costs associated with build-out in rural areas.
    However, in regard to public-private partnerships, it is important 
to note that public safety must have control over the broadband network 
and set the terms for partnership agreements with private entities. 
Public safety needs to know that we have access to the network when we 
need it and on our terms in emergency events, rather than being at the 
mercy of the industry carriers. This is why the allocation of the D 
Block to the public safety community is so important.
    Question 3. Some groups strongly advocate for requiring 
interoperability across all 700MHz broadband spectrum. They argue that 
in terms of public safety, this will make it technically feasible for 
public safety users to roam onto commercial networks, provide redundant 
systems to provide additional capacity or backup in the event of a 
disaster, and greatly increase the scope and economic scale for 
devices, therefore reducing the costs to public safety users. Do you 
agree with this statement?
    Answer. To obtain Nation-wide interoperability public safety must 
have its own robust, mission-critical network and cannot rely on 
roaming onto commercial networks for emergency operations. I believe 
that a system which is coast-to-coast and border-to-border will not 
only ensure redundancy and greater capacity or backup in the event of a 
disaster, but will also provide for a stronger public safety grade 
infrastructure standard instead of the weaker commercial grade standard 
allowing the network to holdup in conditions much harsher than would be 
the case for commercial carriers. One Nation-wide system would drive 
industry to create and build fewer devices which would be in demand by 
first responders and others operating on a single network throughout 
America and therefore driving down the costs for these devices to a 
much more affordable cost to public safety providers.
    Question 4. You have supported the establishment of a public safety 
network as being essential to making sure that police, fire, and EMS 
providers have a secure communications network to respond to local and 
National emergencies. One of the groups we have heard from in support 
of this effort has been the burglar and fire alarm industry. Do you 
believe they play an important role as the eyes and ears of public 
safety providers?
    Answer. The burglar and fire alarm industry play a very important 
role as the eyes and ears of public safety. With new technologies 
available and with the data and video capabilities of the Nation-wide 
public safety interoperable mobile broadband network, burglar, and fire 
alarm companies will be able to transmit data and video images to 
responding public safety. This will enable public safety to not only 
quickly respond to the exact location of an incident but recognize and 
visualize any potential danger or risk.
Question From Honorable Laura Richardson for Sheriff Paul H. Fitzgerald
    Question. Under the status quo of emergency communications, what 
governance challenges do you believe need to be addressed at the 
Federal level, and among State and local government agencies?
    Answer. There should remain a single Nation-wide broadband 
licensee. Currently, this license issued by the FCC has been granted to 
the Public Safety Spectrum Trust (PSST). Should this governance model 
change, there should be an appropriate transition to the new governance 
model whatever that may be once it is funded and operational. Until 
this transition can take effect, the FCC should support and fund the 
PSST.

                                 <all>

</pre></body></html>
